No.
___________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_________________________________________
ROBERT ANDERSON,
Petitioner,
v.
TERI KENNEDY,
Warden, Pontiac Correctional
Center,
Respondent.
______________________________________
Petition for a Writ of Certiorari to the
United States District Court for the Northern
District of Illinois, Eastern Division
______________________________________
PETITION FOR WRIT OF CERTIORARI
____________________________________
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioner Robert Anderson
* Counsel of Record

ii

QUESTION PRESENTED FOR REVIEW
Whether this Court’s decision in Holmes
v. South Carolina, 547 U.S. 319 (2006,
clearly establishes that a defendant’s
due process right to present evidence is
violated by a state rule which arbitrarily
excludes
expert
testimony
on
eyewitness
identification
merely
because there is evidence of defendant’s
guilt apart from the eyewitness
identification.

iii

TABLE OF CONTENTS
QUESTION PRESENTED……………..……...ii
TABLE OF CONTENTS…………….………...iii
TABLE OF AUTHORITIES…………..………vii
OPINIONS BELOW……..………………….…...1
JURISDICTION………………………….…........1
CONSTITUTIONAL
PROVISION INVOLVED…………..…………..2
STATEMENT OF THE CASE…………….....3

iv

REASONS FOR GRANTING THE
PETITION………………………………..……….17
I:
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER THIS
COURT’S DECISION IN HOLMES V. SOUTH
CAROLINA CLEARLY ESTABLISHES THAT
A DEFENDANT’S DUE PROCESS RIGHT TO
PRESENT A DEFENSE IS VIOLATED
WHENEVER RELEVANT DEFENSE
EVIDENCE IS EXCLUDED BASED UPON
THE STRENGTH OF THE STATE’S CASE
RATHER THAN UPON THE MERITS OF THE
EVIDENCE
……………………...……………………………….17
II:
THE PETITION RAISES AN ISSUE OF
NATIONWIDE IMPORTANCE, INVOLVING
WHETHER, CONSISTENT WITH HOLMES,
STATES MAY ARBITRARILY EXCLUDE
EXPERT TESTIMONY AS TO EYEWITNESS
IDENTIFICATIONS BASED UPON THE
STRENGTH OF THE PROSECUTION CASE,
AN ISSUE UPON WHICH THE COURTS
ARE CURRENTLY SPLIT……………………..30

v

III:
IN THE ALTERNATIVE, THIS COURT
SHOULD GRANT THE PETITION FOR
LEAVE TO APPEAL UNDER ITS
SUPERVISORY POWER, BUT REMAND TO
THE SEVENTH CIRCUIT WITH
INSTRUCTIONS TO GRANT A CERTIFICATE
OF APPEALABILITY………………..…………48
CONCLUSION…………………………………..51

APPENDIX A (Order of the United States
Court of Appeals for the Seventh Circuit’s
denying petitioner’s application for a certificate
of appealability)……………………………..App. 3
APPENDIX B (Order of the United States
District Court for the Northern District of
Illinois, denying petitioner’s motion to
reconsider the court’s denial of his petition for
habeas corpus and a certificate of appealability)
‘…………………………………………………App. 8

vi

APPENDIX C (Memorandum Opinion and
Order of the United States District Court for
the Northern District of Illinois, denying
petitioner’s petition for habeas corpus and
declining to issue a certificate of appealability)
‘………………………………………………...App. 8
APPENDIX D (Disposition of the Illinois
Supreme Court denying the petition for leave to
appeal)
……………………………………………….App. 33
APPENDIX E (Opinion of the Illinois Court of
Appeals)………………………………...…..App. 34
APPENDIX F (Oral Ruling of the Circuit
Court of Cook County – Criminal Division)
………………………………………………App. 105

vii

TABLE OF AUTHORITIES
CASES
U.S. Supreme Court Cases

Page

Abdul-Kabir v. Quarterman,
550 U.S. 233 (2007)………………….…………..19

Barefoot v. Estelle, 463 U.S. 880 (1983)……...49
Bell v. Cone, 535 U.S. 685, 694 (2002)………..19
Carey v. Musladin, 549 U.S. 70 (2006)………..18
Crane v. Kentucky, 476 U.S. 683
(1986)………………………………….………….20

Holmes v. South Carolina, 547 U.S. 319

(2006)…………………..............................passim

Houston v. Lack, 487 U.S. 266 (1988)……….49
Perry v. New Hampshire, 565 U.S. 228
(2012)…………………..……………………..34, 35

Slack v. McDaniel, 529 U.S. 473 (2000)…48, 49

viii

Taylor v. Illinois, 484 U.S. 400 (1988)………..20
United States v. Wade, 388 U.S. 218
(1967)……….………………………….………..…34

Watkins v. Sowders, 449 U.S. 341
(1981)………………………….………….………..35

Wiggins v. Smith, 539 U.S. 510 (2003)……….18
Williams v. Taylor, 529 U.S. 362 (2000)……..19
Woodford v. Garceau, 538 U.S. 202 (2003)…..18
Other Federal Cases

Arrendondo v.

Huibregtse, 542 F.3d 1155

(7th Cir. 2008)………………..…………………..49

Benn v. United States, 978 A.2d 1257
(D.C. Cir. 2009)……………..…………….….30, 40

United States v. Brownlee, 454 F.3d 131
(3d Cir.2006)….……………………………...39, 40

Ferensic v. Birkett, 501 F.3d 469
(6th Cir. 2007)………………………….…………34

ix

Fleming v. Kemp, 794 F.2d 1478
(11th Cir. 1986)…………………………….……49

In re L.C., 92 A.3d 290 (D.C. Cir.
2014)………….…………………..………..….29, 33

Julius v. Jones, 875 F.2d 1520
(11th Cir. 1989)………………………………..…49

Kampshoff v. Smith, 698 F.2d 581, 585
(2d Cir.1983)………………………………....35

Pirtle v. Morgan, 313 F.3d 1160
(9th Cir. 2002)…………………………………....19

Smith v. Wainwright, 737 F.2d 1036
(11th Cir. 1984)……………………………..……49

United States v. Brien, 59 F.3d 274, 277
(1st Cir. 1995)…………………………………….32

United States v. Brownlee, 454 F.3d 131
(3d Cir. 2006)………………………….………….40

United States v. Downing, 753 F.2d 1224
(3dCir.1985)………………………….………...32

x

United States v. Graves, 465 F.Supp.2d
450, 456 (E.D.Pa.2006)………………………....31

United States v. Harris, 995 F.2d 532
(4th Cir.1993)…………….……………….……...31

United States v. Lester, 254 F.Supp.2d
602 (E.D.Va.2003)………………..…...30, 31, 40

United States v. Moore, 786 F.2d 1308
(5th Cir. 1986)………………..……………31, 40

United States v. Rodriguez–Felix, 450
F.3d 1117 (10th Cir.), cert. denied, 549
U.S. 968 (2006)……….……..……………………31

United States v. Smith, 621 F.Supp.2d
1207, (M.D.Ala.2009)……………….………..…31

United States v. Smith, 736 F.2d 1103,
1106 (6th Cir.), cert. denied, 469 U.S.
868 (1984)…………………………….……….…40

United States v. Smithers, 212 F.3d 306,
313 (6th Cir.2000)……….……………….…….32

United States v. Stevens, 935 F.2d 1380,
1400 (3d Cir.1991)….…………………………..40

xi

United States v. Vasilakos, 508 F.3d 401
(6th Cir. 2007)………… ………..……………....20

United States v. Williams, 522 F.3d 809
(7th Cir.2008)…..….………………………...29, 39

Wilson v. O'Leary, 895 F.2d 378
(7th Cir. 1990)……………………………………49
State Court Cases

People v. Anderson, 2017 IL App (1st)
122640………..…………………………….…….17

State v. Bradley, 181 Ohio App.3d 40, 44,
907 N.E.2d 1205, appeal denied, 122 Ohio
St.3d 1480, 910 N.E.2d 478 (2009)………...…31

Brodes v. State, 279 Ga. 435, 614 S.E.2d
766 (2005)……….……………………………32, 43

Bomas v. State, 412 Md. 392, 987 A.2d 98
(2010)……….…….………..……………………..32

State v. Chapple, 135 Ariz. 281,
660 P.2d 1208 (1983)…..……………………….31

xii

Com. v. Christie, 98 S.W.3d 485
(Ky. 2002)……..…………………..…….……32, 40

State v. Clopten, 223 P.3d 1103
(Utah 2009)….…………………………..………..45

State v. Copeland, 226 S.W.3d 287,
(Tenn.2007)…………………………….….31, 44

People v. Cornwell, 37 Cal.4th 50,
117 P.3d 622, 33 Cal.Rptr.3d 1 (2005)...30, 40

State v. Dubose, 285 Wis.2d 143, 699
N.W.2d 582 (2005)… …………………………45

People v. Goodwillie, 147 Cal. App. 4th
695, 54 Cal. Rptr. 3d 601 (2007)… ….……..33

State v. Guilbert, 306 Conn. 218 49 A.3d
705, (2012)……………………………………32, 33

State v. Henderson, 208 N.J. 208, 27
A.3d 872 (2011) holding modified by
State v. Chen, 208 N.J. 307, 27 A.3d 930
(2011)……………………………..………..…32, 43

State v. Holmes, 361 S.C. 333 (2006)……..….21

xiii

Johnson v. State, 272 Ga. 254, 526 S.E.2d
549 (2000)………….………….…………..…30, 40

State v. Ledbetter, 275 Conn. 534,
881 A.2d 290 (2005)……………………35, 35. 40

People v. LeGrand, 8 N.Y.3d 449, 867
N.E.2d 374, 835 N.Y.S.2d 523 (2007)..………44

People v. Lerma, 2016 IL 118496…..…....23, 24
McMullen v. State, 714 So. 2d 368
(Fla. 1998)………..…….………………..…..31, 32

People v. McDonald, 37 Cal. 3d 351,
690 P.2d 709 (1984)……………………………..31

Tillman v. State, 354 S.W.3d 425
(Tex.Crim.App.2011)………………....…….44, 45

State v. Tatum, 219 Conn. 721
595 A.2d 322 (1991)………….…….……………36

State v. Wright, 147 Idaho 150, 158,
206 P.3d 856, 864 (Ct. App. 2009)……..…31, 36

People v. Young, 7 N.Y.3d 40 850
N.E.2d 623 (2006)………………..…….……..31

xiv

STATUTES AND RULES
28 U.S.C. Sec. 1254(1)…………………...............1
28 U.S.C. § 2253 (c)(2)………………………..…48
28 U.S.C. § 2254………………………………….18
28 U.S.C. § 2254(d)……………………….……..18
U.S. Sup. Ct. Rule 10(a)……………………..…30
U.S. Sup. Ct. Rule 10(c)……………..…..…18, 48

SECONDARY AUTHORITIES
2-35 Fed. Habeas Prac. & Proc. § 25.4………..48

Eyewitness Identification Task Force, Report to
the Judiciary Committee of the Connecticut
General Assembly (February 8, 2012)……..…36

xv

S. Clark, “A Re-examination of the Effects of
Biased Lineup Instructions in Eyewitness
Identification,” 29 Law & Hum. Behav. 395,
(2005)…………………………………………….38
A. Douglass & N. Steblay, “Memory Distortion
in Eyewitnesses: A Meta–Analysis of the Post–
Identification Feedback Effect,” 20 Applied
Cognitive Psychol. 859 (2006)………………..38
K. Deffenbacher et al., “Forgetting the Once–
Seen Face: Estimating the Strength of an
Eyewitness's Memory Representation,”
14 J. Experimental Psychol.: Applied 139
(2008)……………………………………………..38
K. Deffenbacher et al., “A Meta–Analytic
Review of the Effects of High Stress on
Eyewitness Memory,” 28 Law & Hum. Behav.
687, 699–704 (2004)……………………………38
K. Deffenbacher et al., “Mugshot Exposure
Effects: Retroactive Interference, Mugshot
Commitment, Source Confusion, and
Unconscious Transference,” 30 Law & Hum.
Behav. 287 (2006)………………………………38

xvi

S. Gross et al., “Exonerations in the United
States 1989 Through 2003,” 95 J.Crim. L. &
Criminology 523, 542 (2005)…………………..37
S. Kassin et al., “On the ‘General Acceptance’ of
Eyewitness Testimony Research: A New Survey
of the Experts,” 56 Am. Psychologist 405, 405–
406 (2001)…………………………………………39
J. McMurtrie, “The Role of the Social Sciences
in Preventing Wrongful Convictions,” 42
Am.Crim. L.Rev. 1271 (2005)………………….37
J. Pozzulo & R. Lindsay, “Identification
Accuracy of Children Versus
Adults: A Meta–Analysis,” 22 Law & Hum.
Behav. 549 (1998)………..…………………..…..39
N. Steblay et al., “Eyewitness Accuracy Rates in
Police Showup and Lineup Presentations: A
Meta–Analytic Comparison,” 27 Law & Hum.
Behav. 523 (2003)……………………………..….39

xvii

N. Steblay et al., “Eyewitness Accuracy Rates in
Sequential and Simultaneous Lineup
Presentations: A Meta–Analytic Comparison,”
25 Law & Hum. Behav. 459 (2001)
N. Steblay, “Social Influence in Eyewitness
Recall: A Meta–Analytic Review of Lineup
Instruction Effects,” 21 Law & Hum. Behav.
283, 284, 294–96 (1997)…………………………39
N. Steblay, “A Meta–Analytic Review of the
Weapon Focus Effect,” 16 Law & Hum. Behav.
413, 413, 420–22 (1992)……………..………….39
S. Thompson, “Eyewitness Identifications and
State Courts as Guardians Against Wrongful
Conviction,” 7 Ohio St. J. Crim. L. 603
(2010)………………………………………..…….37
G. Wells et al., supra, at 22 Law & Hum.
Behav. 605…………………………………...37, 38

1

OPINIONS BELOW
The order of the Court of Appeals for the
Seventh Circuit, denying the certificate of
appealability is unpublished. A copy of this order
is reproduced in Appendix A. (App. 3). The order
of the United States District Court for the
Northern District denying the motion for
reconsideration is also unpublished and is
reproduced in Appendix B. (App. 5).
The
memorandum opinion and order of the United
States District Court for the Northern District of
Illinois is cited as Anderson v. Kennedy, No. 18
C 4916 (N.D. Ill. Apr. 4, 2019) and reproduced in
Appendix C, (App. 8). The opinion of the Illinois
Appellate Court for the First District affirming
Robert Anderson’s conviction is cited as People
v. Anderson, 2017 IL App (3d) 1222640.
JURISDICTION
The United States Court of Appeals for the
Seventh Circuit issued its order on March 19,
2020. This court has jurisdiction under 28 U.S.C.
Sec. 1254(1). The United States District Court
for the Northern District of Illinois, Eastern
Division had jurisdiction over Robert Anderson’s

2

habeas petition under 28 U.S.C. § 2254.

CONSTITUTIONAL PROVISION INVOLVED
United States Constitution, amend. XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

3

STATEMENT OF THE CASE
This case involved the murders of Robert
Lilligren and Moises Reynoso, who both died of
multiple gunshot wounds. (R. VI, 162, 211-12).
Robert Anderson, who gave no statement to the
police and who did not testify at trial, was
convicted based upon the identifications of two
police eyewitnesses who chased but lost sight of
the killer, and based upon other, circumstantial
evidence. No confessions or inculpatory
statements were introduced.

The Motion in Limine
Prior to trial, the defense moved in limine
to introduce the testimony of Dr. Solomon
Fulero, a Ph. D. psychologist and expert on
eyewitness identification. (C.L.R. II, 429-37).
The motion stated that Dr. Fulero would have
testified to “common misperceptions regarding
eyewitness identifications.” He would also have
testified to “factors relevant to the present case,”
including: (1) “confidence is not related to
accuracy,”(2) “stress of the presence of a weapon
reduces the reliability of identification,” (3)
“eyewitnesses overestimate time frames,” and
(4) the “problem of cross-racial identifications.”
(C.L.R. II, 429).

4

The trial court denied the motion because
he believed there was going to be “strong
circumstantial evidence on the route of flight
and recovery of gun and positive gunshot residue
that support the identification. So the case isn’t
going to rise or fall on the identifications of the
police officers alone.” The court also relied
upon the fact that the eyewitnesses were police
officers who were “trained to observe.” (R. III,
13).

The Trial
Sergeant Paul M. Sedlacek testified. (R. V,
109). On March 5, 2003, shortly before midnight,
he was working with Officer Jeong Park, in
uniform, and in a marked squad car. (R. V, 11011). At that time, the officers received a call
concerning a well being check on the Clark Gas
Station attendant at Irving and Sacramento. (R.
V, 111).
When the officers arrived at the Gas
Station, they both got out of the car. (R. V, 112).
As Sedlacek was exiting the car, he heard shots
fired from his left, to the west of where he was
standing.. There were five or six shots. As
Sedlacek looked to his left, he saw a silver
vehicle parked in the rear parking lot of the
Leader Liquors. (R. V, 113). A person was

5

standing by the rear passenger’s side next to
trunk firing into the vehicle. (R. V, 113). The
person looped around the back of the trunk,
stood next to tire on the driver’s side and fired
one shot at the driver, who appeared to be trying
to get out of the car. (R. V, 113-14). Sedlacek saw
the shooter’s face at that point, but not clearly
enough to make an identification. (R. VI, 9-10,
51-52).
Sedlacek described the shooter as wearing
a dark jacket and dark pants. He was 60 to 65
feet away. (R. V, 114). The area was well lit,
but his view was obstructed by a chain link
fence. (R. V, 114-15).
After the last shot, the shooter began to
run in the alley, heading eastbound toward the
officers, but on the other side of the chain link
fence. The officers ran parallel to his flight path,
heading toward an opening in the chain link
fence. (R. V, 115). At one the shooter passed
within 10 to 12 feet of Sedlacek. The hood on the
shooter’s face fell back, and Sedlacek got a look
at the face for “no more than a second.” (R. V,
117). His view of the face was a full frontal view
with the hood down. (R. V, 58-59).
Based upon that one second look at the
shooter’s face, Sedlacek identified Robert

6

Anderson in open court. Sedlacek admitted that
he was “fixated” on the gun in the shooter’s
gloved right hand. Sedlacek did not see the
shooter’s left hand. (R. V, 117).
Sedlacek claimed that he recognized the
shooter’s face but could not remember his name
at the time. (R. V, 21). During the chase Sedlacek
heard Park describe the shooter over the radio
as a male black in all black or all dark clothing.
(R. VI, 61-62). Park did not describe the shooter
as wearing a black parka. Park did not describe
shooter as wearing a black parka with fur
around the hood. Park did not say that the
shooter had gloves on. (R. VI, 62). Sedlacek did
not himself give any additional description of the
shooter. (R. VI, 63-64).
Sedlacek and Park
chased the shooter,
going eastwards. (R. V, 117). As he was chasing
the shooter, Sedlacek heard screaming. (R. V,
118). Sedlacek then ran back to the scene of
shooting. (R. V. 118-19). Park went a few houses
further and then followed Sedlacek back to the
scene. (R. V, 61). A white female was screaming
and running around. Sedlacek chased her down
and brought her back to the scene of the
shooting. (R. V, 119). Her name was Roberta
Stiles. (R. V, 121, 127). Shortly afterwards, other
squad cars arrived on the scene. (R. V, 120).

7

In the car, Sedlacek saw the two victims.
Both were bleeding. One was inside the car, and
other person was laying out between the door
and the car. (R. V, 120). Sedlacek recognized the
victim on the driver’s side because he had
interacted with him in the past. (R. V, 120). He
identified this person from a photograph as
Moises Reynoso. (R. V, 123). Sedlacek identified
the person in the passenger seat as Robert
Lilligren. (R. V, 123).
About fifteen minutes after the shooting,
Sedlacek saw Robert Anderson in the back of
police vehicle which arrived at the scene of the
shooting. (R. V, 121-22). Sedlacek identified
Robert Anderson as the shooter. He saw Robert
Anderson vomit. (R. V, 122-23). Sedlacek was
directed to look at the man in back of the police
vehicle by Sergeant Matt Kennedy or Lieutenant
Regnier. (R. V, 73-74).
Sedlacek claimed that he knew Robert
Anderson as “Nookie.” (R. V, 124). On July 1,
2001, in the early morning hours, Sedlacek saw
Robert Anderson with Terry Hill and Moises
Reynoso in the 7-Eleven parking lot on Irving
and California. (R. V, 124).
On cross-examination, Sedlacek testified
that he arrested Robert Anderson in July of

8

2001. (R. VI, 10). The arrest was for the
aggravated battery of a man named Edward
Binabi. (R. VI, 11). Anderson was charged
together with Terry Hill and Moises Reynoso. (R.
VI, 13).
Sedlacek testified that during the prior
investigation he was within several feet of
Robert Anderson for about two hours in a lighted
police station. (R. VI, 26-27). He was face to face
with Robert Anderson several times during that
day. (R. VI, 27). He also testified against Robert
Anderson in the trial of the Binabi case held on
April 18th, 2002. (R. VI, 28). In that case, he
identified Robert Anderson in open court. (R. VI,
29).
Between the time Sedlacek observed the
shooter and the showup identification of Robert
Anderson, Sedlacek did not report on the radio
that the shooter was Robert Anderson, or that
the shooter was nicknamed “Nookie.” (R. VI, 66).
He did not tell either Sergeant Kennedy or
Lieutenant Regnier that he knew the shooter,
had previously arrested him, and/or had testified
against him in court. (R. VI, 74-75).
Sedlacek admitted that in his case report,
he did not check the box which would have
indicated that he witnessed the offense. (R. VI,

9

35). He also did not write in the report that the
shooter had turned and given Sedlacek a full
frontal view of the shooter’s face. (R. VI, 67). Nor
did he write in the report that he had seen a
glove on the right hand of the shooter. (R. VI, 6869, 77).
In his case report, which was written
several hours after the incident, Sedlacek wrote
that the shooter was a male black wearing a
dark jacket. (R. VI, 69-70). He did not write that
the shooter was wearing a parka with a hood and
a fur collar. (R. VI, 70-71). He did not write that
the shooter was wearing gloves. (R. VI, 71).
Sedlacek was interviewed by detectives at
the station. He could not remember if he told the
detectives that the shooter was wearing a parka.
(R. VI, 80-81). He might have told the detectives
the jacket the offender was wearing had a hood.
(R. VI, 81-82). He did not think he told them that
there was fur around the collar of the hood. (R.
VI, 81-82). He could not recall whether he told
the detectives that the offender wore gloves. (R.
VI, 82).
Officer Jeong Park testified. (R. VI, 105).
He was officer Sedlacek’s partner when they
went to do the well being check at the Clark
station on Irving Park by Sacramento. (R. VI,

10

107). He also heard shots fired, looked to his left,
and saw a person shooting into a silver car. (R.
VI, 109).
Park testified as the shooter ran away,
Park ran parallel to the shooter, along a fence.
(R. VI, 110-11). Park claimed that the hood came
off the shooter’s head and that as the shooter
turned around, Park got a good look at the
shooter’s face from 10 to 15 feet away. The
shooter had a gun in his right hand. (R. VI, 111).
He was wearing gloves. (R. VI, 113). Park
identified the shooter as Robert Anderson. (R.
VI, 111-12).
As Park and Sedlacek were chasing the
shooter, they heard loud screaming coming the
scene of the shooting. They returned to the scene
of the shooting. (R. VI, 114). When Park returned
to the scene, he attempted to calm the screaming
woman, Roberta Stiles. (R. VI, 114-15). He also
observed the shooting victims in the car. (R. VI,
115-16). About twenty minutes later, Park
identified Robert Anderson, who was sitting in
squad car, as the shooter. (R. VI, 116-17).
Anderson was vomiting. (R. VI, 117).
Park testified that during the time after he
saw the face of the shooter, Sedlacek never said
that he knew the shooter. (R. VI, 153-54).

11

Joseph Castillo testified. (R. VIII, 3).
Around midnight, March 6, 2003, he was on
patrol, in uniform and in a marked squad car. (R.
VIII, 5). At that time he heard a radio
transmission by other officers announcing shots
fired. (R. VIII, 5-6). He heard officer Park saying
over the radio: “Male black in all dark clothing.”
(R. VIII, 36-37). Then he heard Officer Park say:
“731, we lost him in the alley, one block east of
the gas station. If someone can secure our car,
well, it’s the gas station lot, when we heard the
victim screaming.’ (R. VIII, 37).
Castillo drove towards Leader Liquors, at
Sacramento and Irving. (R. VIII, 6-7). He got out
of his car on the corner of California and Belle
Plaine to search for the wanted offender. (R.
VIII, 7-8). As he was walking south down an
alley between California and Mozart, he saw a
subject running down a gangway. (R. VIII, 8-9).
The subject was wearing a black parka type
jacket. (R. VIII, 10). Castillo had no doubt that
the jacket was a parka. He saw the fur around
the collar. (R. VIII, 45).
Castillo called: “Police. Stop.” (R. VIII, 910). The subject ignored him (R. VIII, 9) and kept
running. (R. VIII, 10-12). As a squad car
approached the subject, Castillo saw the subject
drop something from his right hand. (R. VIII,

12

12). Castillo placed the subject into custody. (R.
VIII, 12).
Castillo recovered some black gloves and a
checkbook from the ground. (R. VIII, 12-13). The
check book was right next to the gloves. It was
not a checkbook in the name of Robert Anderson.
(R. VIII, 51-52). It might have been a checkbook
in the name of Mark Irwin. (R. VIII, 52).
Castillo claimed he gave the gloves and
checkbook to the crime lab personnel but could
not remember when and where he did so. (R.
VIII, 60-62). Before he turned the items over to
the crime lab, he kept then in his right pocket.
(R. VIII, 63-64).
Officer Jeffrey Merrifield testified. (R. VIII,
84). He confirmed the identification of Robert
Anderson by officers Park (R. VIII, 88-89) and
Sedlacek (R. VIII, 89-90). He also testified that
after each identification, Anderson vomited. (R.
VIII, 89, 90).
Officer Rick Nigro testified. (R. VIII, 95).
After searching gangways in the area of the
shooter’s possible flight path (R. VIII, 102-03), he
saw some footprints in the snow on the side of a
garage. (R. VIII, 104). On the roof of the garage,
he found a semiautomatic black handgun laying

13

in the snow. (R. VIII, 105-06). An evidence
technician recovered the gun. (R. VIII, 106-07).
It was stipulated that crime scene
technicians were unable to take videotapes of the
crime scene because of blowing snow and
freezing temperatures. There were also
stipulations to the chain of custody for shell
casings found on the ground in the snow around
the car where the victims were shot; for bullets
recovered from the body of Moises Reynoso; for
the gloves and the checkbook and check register
in the name of Mark A. Irwin; as well as to the
gun, the magazine, and the parka. (R. VIII, 4-8).
It was also stipulated that no fingerprints
suitable for comparison were found on the gun,
the magazine, and the cartridge cases. (R. VIII,
11-12). Kurt Zielenski, a firearms examiner,
testified that the cartridge cases and fired
bullets were fired by the gun recovered from the
garage rooftop. (R. VIII, 28-30).
Mary Wong, an expert on gun shot residue,
testified. (R. VIII, 41). She testified that one of
the gloves contained four unique particles which
indicated that it was either in the vicinity of a
discharged firearm or came in contact with
primer gunshot residue related items. (R. VIII,
52). The other glove contained particles
characteristic of background samples. (R. VIII,

14

53). She also tested the cuffs of both sleeves of
the parka. (R. VIII, 53-56). Both cuffs only
contained particles characteristic of background
samples. (R. VIII, 56). On cross-examination,
Wong admitted that there was no way to
determine when the gunshot residue particles
were deposited on the gloves. (R. VIII, 68, 71-72).
The jury convicted Robert Anderson of both
murders and he was sentenced to life in prison.

Appellate Proceedings
The Illinois Appellate Court affirmed.
People v. Anderson, 2017 IL App (3d) 1222640.
On the issue of the admissibility of the expert’s
testimony, the court, relying upon the Illinois
Supreme Court’s decision in People v. Lerma,
2016 IL 1184964 (Lerma II), held that the
expert’s testimony was properly excluded
because Robert Anderson’s conviction “does not
rest solely upon the identification made by
Officers Sedlacek and Park.” The court noted
that there was physical and circumstantial
evidence outside of the identification testimony.
Anderson, 2017 IL App (3d) 1222640, ¶ 86.
After the Illinois Supreme Court denied
Robert Anderson’s petition for leave to appeal,
Robert Anderson filed a timely habeas petition,

15

alleging that the Illinois courts had violated the
clearly established rule of Holmes v. South
Carolina, 547 U.S. 319 (2006) that probative
defense evidence may not excluded merely
because of the strength of the prosecution’s other
evidence.
The district court below rejected this
argument, holding that Holmes was not relevant
because the defense evidence excluded was “fact
evidence implicating a third party in the crime”
and that Holmes was “simply not relevant to a
decision to exclude expert testimony.” (App. 26).
The district court reasoned that because
expert testimony is evaluated based upon
whether it is “helpful” to a jury, the trial court
was free to consider this question “in light of the
evidence the trier of fact has to consider.” (App.
27).
Apparently equating the “other evidence”
the jury had to consider with the strength of the
prosecution case, the court went on to hold that
the evidence was not “helpful” because some of
the factors in the case – distance, obstructed
views, time to observe” could be evaluated
without the help of expert testimony, the expert
testimony was properly excluded. (App. 27-28).
The district court did not discuss the other

16

factors discussed by the expert, such as weapon
focus, certainty, and cross racial identification.
The district court denied the petition and
declined to grant a certificate of appealability.
(App. 30-31).
Robert
Anderson’s
motion
for
reconsideration was denied. (App. 8). The
Seventh Circuit also declined to grant a
certificate of appealability. (App. 3).

17

REASONS FOR GRANTING THE
PETITION
I.
THIS COURT SHOULD GRANT THE
PETITION TO DETERMINE WHETHER THIS
COURT’S DECISION IN HOLMES V. SOUTH
CAROLINA CLEARLY ESTABLISHES THAT
A DEFENDANT’S DUE PROCESS RIGHT TO
PRESENT A DEFENSE IS VIOLATED
WHENEVER
RELEVANT
DEFENSE
EVIDENCE IS EXCLUDED BASED UPON
THE STRENGTH OF THE STATE’S CASE
RATHER THAN UPON THE MERITS OF THE
EVIDENCE
This Court should grant certiorari to
determine whether this Court’s decision in
Holmes v. South Carolina, 547 U.S. 319 (2006)
clearly establishes that a state court cannot
exclude otherwise admissible testimony (in this
case
expert
testimony
on
eyewitness
identification) merely because there is
additional evidence of defendant’s guilt apart

18

from the identification. The decision of the
district court below which held that this
principle was not clearly established, decided
this question in way which “conflicts with
relevant decisions of this Court.” U.S. Sup. Ct. R.
10 (c) on whether federal law is “clearly
established” for habeas purposes.
Robert Anderson’s petition was filed after
April 24, 1996, and is therefore governed by the
Antiterrorism and Effective Death Penalty Act
(“AEDPA”), 28 U.S.C. § 2254. Woodford v.
Garceau, 538 U.S. 202, 210 (2003). Under
AEDPA, this court should grant relief when the
state court's decision was “contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States” or “was
based on an unreasonable determination of the
facts in light of the evidence presented in the
State court proceeding.” 28 U.S.C. § 2254(d);
Wiggins v. Smith, 539 U.S. 510, 520 (2003).
“[C]learly established Federal law” includes only
the Supreme Court's “applicable holdings,” not
its dicta. See Carey v. Musladin, 549 U.S. 70
(2006). There need not be a narrow Supreme
Court holding precisely on point, however. A
state court can render a decision that is
“contrary to” or an “unreasonable application” of

19

Supreme Court law by “ignoring the
fundamental principles established by [that
Court's] most relevant precedents.” Abdul-Kabir
v. Quarterman, 550 U.S. 233 (2007).
A state court's decision is “ ‘contrary to’
federal law if it fails to apply the correct
controlling Supreme Court authority or comes to
a different conclusion ... [from] a case involving
materially indistinguishable facts.” Pirtle v.
Morgan, 313 F.3d 1160, 1167 (9th Cir. 2002)
(citing Bell v. Cone, 535 U.S. 685, 694 (2002)). A
state court's decision is an “unreasonable
application” of Supreme Court law if “the state
court correctly identifies the governing legal
principle ... but unreasonably applies it to the
facts of the particular case.” Bell, 535 U.S. at
694. This Court has held that “a federal habeas
court making the ‘unreasonable application’
inquiry should ask whether the state court's
application of clearly established federal law was
objectively unreasonable.” Williams v. Taylor,
529 U.S. 362, 409 (2000).
Here, the Illinois courts have adopted a
rule that the admission of expert identification
testimony depends upon whether there is
evidence of a defendant’s guilt apart from the
eyewitness identifications. This rule was

20

“contrary to” and “unreasonably applied” the due
process holding of Holmes and this Court’s
holdings on a defendant’s right to present
relevant evidence.
The
United
States
Constitution
guarantees criminal defendants “a meaningful
opportunity” to present a complete defense.
Crane v. Kentucky, 476 U.S. 683, 690 (1986) In
the context of a criminal trial, an accused's right
to present a defense derives from the Sixth
Amendment. A central component of a
defendant's right to present a defense is the right
to offer the testimony of witnesses. Taylor v.
Illinois, 484 U.S. 400, 409 (1988). Because expert
testimony often forms a critical part of a
defendant's presentation of evidence, the
exclusion of expert testimony may might violate
a defendant's Sixth Amendment right to present
a defense. United States v. Vasilakos, 508 F.3d
401, 410 (6th Cir. 2007).
In Holmes, the United States Supreme
Court reviewed a due process challenge to a
South Carolina rule which precluded a
defendant from presenting evidence that
another person had committed the crime “’where
there is strong evidence of [a defendant’s] guilt,
especially where there is strong forensic

21

evidence.’ ” 547 U.S. at 329, quoting State v.
Holmes, 361 S.C. 333, 342 (2006). The Court
held that South Carolina’s rule violated due
process:
“Under this rule, the trial judge
does not focus on the probative value
or the potential adverse effects of
admitting the defense evidence of
third-party guilt. Instead, the critical
inquiry concerns the strength of the
prosecution's
case:
If
the
prosecution's case is strong enough,
the evidence of third-party guilt is
excluded even if that evidence, if
viewed independently, would have
great probative value and even if it
would not pose an undue risk of
harassment, prejudice, or confusion
of the issues.”
547 U.S. at 329.
The Court concluded that the rule lacked
any legitimate purpose and was arbitrary
because it confused the issue of the probative
value of the proffered defense evidence with the
probative value of the prosecution’s case:

22

“Just because the prosecution's
evidence, if credited, would provide
strong support for a guilty verdict, it
does not follow that evidence of thirdparty guilt has only a weak logical
connection to the central issues in the
case. And where the credibility of the
prosecution's witnesses or the
reliability of its evidence is not
conceded, the strength of the
prosecution's case cannot be assessed without making the sort of factual
findings that have traditionally been
reserved for the trier of fact and that
the South Carolina courts did not
purport to make in this case.”
547 U.S. at 330.
These statements are clearly holding, not
dicta, and state the fundamental principles
involved. Although the evidence in Holmes
happened to involve evidence of third party
culpability, the nature of the evidence had no
bearing on the fundamental principle that
defense evidence may not be excluded based
upon the strength of the prosecution’s case.
The Illinois courts, just like the South

23

Carolina courts, have adopted a rule that expert
testimony on eyewitness identification may be
excluded where there is “physical and
circumstantial evidence outside of the
identification testimony” that supports the
identification. In this case, the trial judge who
excluded the expert’s testimony specifically
relied upon his perception that there was going
to be “strong circumstantial evidence on the
route of flight and recovery of gun and positive
gunshot residue that support the identification,”
which meant to him, that the case was not going
to “rise or fall on the identifications of the police
officers alone.”
Relying upon the Illinois Supreme Court’s
statement in the leading case of People v. Lerma,
2016 IL 118496, ¶ 26 that expert testimony is
“relevant and appropriate” where eyewitness
testimony is the “only evidence of defendant’s
guilt,” the Illinois appellate court below
similarly found that the trial court had
appropriately excluded the evidence because
“defendant's conviction does not rest solely on
the identification made by Officers Sedlacek and
Park,” and therefore, “unlike Lerma, there was
physical and circumstantial evidence outside of
the identification testimony that supported
defendant's conviction.” People v. Anderson,

24

2017 IL App (1st) 122640, ¶ 86.
The rule adopted by the Illinois courts. just
like the rule of evidence adopted by South
Carolina, confuses the probative value of the
proffered expert testimony with the other
circumstantial evidence in the case which, if
credited, would provide support for a guilty
verdict. Illinois’ rule directly conflicts with the
clearly established rule in Holmes, misapplies
Holmes’s fundamental principles, and therefore
merits review by this Court.
The district court below claimed that
Holmes did not “clearly establish” the Illinois
rule violated due process, because Holmes only
applied to fact witnesses and not to expert
witnesses:
“Any similarity between the
Holmes principle and the state
courts’ decisions disappears in the
face of the undeniable substantive
difference between fact evidence and
expert evidence. The relevance of fact
evidence is assessed relative to the
legal elements of the ultimate
question to be decided. Assessment of
relevance to a particular legal claim

25

can generally be made without a
broader evidentiary context. Hence,
the principle in Holmes prohibiting
weighing of the relevance of various
pieces of evidence. By contrast, the
relevance of expert evidence is
assessed relative to whether it helps
the trier of fact determine a fact in
issue that is relevant to the ultimate
question. Whether expert evidence
helps the trier of fact can only be
assessed in light of the other evidence
the trier of fact has to consider.
Without
evidentiary
context,
“helpfulness” has no meaning.”
“Furthermore, factual context
is especially relevant to determining
the “helpfulness” of expert testimony
on the reliability of eyewitness
identification in particular. As many
courts have noted, lay jurors have
personal experience with common
circumstances relevant to the
reliability
of
eyewitness
identification—e.g.,
distance,
obstructed views, time to observe.
Notably, all of these factors were
present in Anderson’s case. This is in

26

contrast to People v Lerma where the
Illinois Supreme Court affirmed
reversal of the trial court’s exclusion
of expert testimony because in that
case the only evidence against the
defendant
was
eyewitness
identification that occurred in
circumstances that might not cause a
lay juror to question its reliability
without assistance from expert
testimony. Unlike the defendant in
Lerma, it was possible for Anderson
to make a case for the unreliability of
the eyewitness identification through
aggressive cross examination and
argument, without the need for
expert testimony on this issue.”
The district court’s distinction between fact
evidence
and
expert
evidence
was
fundamentally mistaken and misapplied this
Court’s holding in Holmes.
First, contrary to the district court’s
conclusion, the admissibility of fact evidence and
expert witness evidence both depend upon other
evidence in the case.
For example, in Holmes, the admission

27

evidence of third party culpability depended
upon a showing that such evidence related to the
other evidence in the case, such as the facts of
the murder and the relationship between the
third party suspect and the murder victim. But
this consideration of other evidence was
analytically distinct from the issue of whether
the prosecution had overwhelming evidence of
Holmes’ culpability – such as the DNA evidence
which persuasively linked him to the crime. The
first inquiry did not violate due process, and the
second inquiry did.
In this case the relevance and probative
value of the proffered expert testimony obviously
depended on other facts. For example, had the
prosecution’s case rested solely upon physical
evidence and/or a confession, and not on
eyewitness
identifications,
the
expert’s
testimony would obviously be irrelevant and
inadmissible. But this question is analytically
distinct from the question of whether the
admissibility of the expert’s testimony should
depend upon the strength of the prosecution’s
case apart from the eyewitness identifications.
Just as the admissibility of the third party
culpability evidence should not have depended
upon the existence of strong DNA evidence, so
the admissibility of Dr. Fulero’s testimony

28

should not have depended upon the existence of
other circumstantial
Robert Anderson.

evidence

implicating

Second, contrary to the district court’s
conclusion, the “helpfulness” of expert
testimony, while it also depends upon the facts
of the case, does not depend upon the strength of
the state’s case.
The district court was correct that the jury
may have able, without expert testimony, to
evaluate certain weaknesses in the eyewitness
identifications, such the distances, the weather
conditions, and the opportunity to view. But
under the general rule as to the admissibility of
expert testimony adopted in Lerma, Dr. Fulero’s
testimony as to other factors bearing upon the
reliability of the identification, such as weapon
focus, certainty, or cross racial identification
should have been admissible, and would have
been admissible, apart from the other
circumstantial evidence. The weaknesses in the
eyewitness evidence had nothing to do with the
strength of the rest of the prosecution’s evidence,
which the Illinois courts unconstitutionally used
to exclude Dr. Fulero’s testimony.
Moreover, the district court’s

reasoning

29

in this case to “helpfulness” conflicts with a
decision of the United States Court of Appeals
for the District of Columbia Circuit, See In re
L.C., 92 A.3d 290, 296–97 (D.C. Cir. 2014)(in
light of Holmes, trial judge cannot exclude
expert testimony as “uphelpful based on the
perceived strength of the opponent’s evidence”).
Therefore, this court should grant the
petition for writ of certiorari.

30

II:
THE PETITION RAISES AN ISSUE OF
NATIONWIDE IMPORTANCE, INVOLVING
WHETHER CONSISTENT WITH HOLMES,
STATES MAY ARBITRARILY EXCLUDE
EXPERT TESTIMONY AS TO THE
RELIABLE OF EYEWITNESS
IDENTIFICATIONS BASED UPON THE
STRENGTH OF THE PROSECUTION CASE,
AN ISSUE UPON WHICH THE COURTS
ARE CURRENTLY SPLIT
This court should also grant the petition
for writ of certiorari because the decision of the
the Seventh Circuit endorsing the district court
below conflicts with “a decision of another court
of appeals on the same important matter” and
has “conflicted with a decision by a state court of
last resort” U.S. S. Ct. Rule 10(a). Moreover, the
issue presented is also of nationwide importance
because of the salience of expert eyewitness
identification testimony and its impact upon
wrongful convictions.
There is a major, deep, and widening split
among state and federal courts as to whether the

31

admissibility of expert witness testimony should
depend upon the strength of the prosecution’s
case. The Illinois “other evidence” rule is
followed, with some variations,
in other
jurisdictions which admit expert testimony on
eyewitness identification. See, e.g., United
States v. Moore, 786 F.2d 1308, 1313 (5th Cir.
1986)(expert testimony admissible only in a case
in which the “sole testimony is casual eyewitness
identification”); People v. McDonald, 37 Cal. 3d
351, 377, 690 P.2d 709, 727 (1984)(expert
testimony should be admissible where
“eyewitness identification” of the defendant is a
“key element” of the prosecution's case but is
not “substantially corroborated by evidence
giving it independent reliability”); State v.
Wright, 147 Idaho 150, 158, 206 P.3d 856, 864
(Ct. App. 2009)(expert testimony should be
admitted where eyewitness identification of
the defendant is a “key element” of the
prosecution's case but is not “substantially
corroborated by evidence giving it independent
reliability”); People v. Young, 7 N.Y.3d 40, 46,
850 N.E.2d 623, 627 (2006)(excluding expert
testimony because corroborating evidence
significantly diminished the importance of the
proffered expert testimony). This rule has been
described as the rule of “limited admissibility.”
McMullen v. State, 714 So. 2d 368, 371 (Fla.

32

1998)(rejecting “limited admissibility” in favor
of a general abuse of discretion standard).
Other jurisdictions admit expert testimony
even where there is evidence corroborating
eyewitness identification. See, e.g, State v.
Guilbert, 306 Conn. 218, 263, 49 A.3d 705, 738
(2012)( “we do not believe that a defendant
should be precluded from presenting such
testimony merely because the state has
presented other evidence of guilt”); McMullen v.
State, 714 So. 2d 368, 371 (Fla. 1998)(rejecting
“limited admissibility” in favor of a general
abuse of discretion standard); Com. v. Christie,
98 S.W.3d 485, 488 (Ky. 2002)(adopting abuse of
discretion standard and rejecting rule that it is
only an abuse of discretion to exclude testimony
where there is no substantial evidence
corroborating the eyewitness identification);
Bomas v. State, 412 Md. 392, 419, 987 A.2d 98,
114 (2010)(expert testimony may be admissible
whether the prosecution's case “rests solely on
eyewitness identification or not”); State v.
Henderson, 208 N.J. 208, 297, 27 A.3d 872, 925
(2011) holding modified by State v. Chen, 208
N.J. 307, 27 A.3d 930 (2011)(expert testimony
admissible if usual criteria for admission are
met); United States v. Brien, 59 F.3d 274, 277
(1st Cir. 1995)(court unwilling to adopt blanket

33

rule that testimony will be admitted or
excluded).
But, more importantly, the smaller
number of courts which have considered whether
Holmes means that a court denies a defendant
due process where expert testimony on
eyewitness identification is excluded based on
corroborative evidence, are also split. Some
courts have concluded that Holmes precludes
exclusion of expert testimony on this basis, and
some have not. Compare In re L.C., 92 A.3d 290,
296–97 (D.C. Cir. 2014)(in light of Holmes, trial
judge cannot exclude expert testimony as
“uphelpful based on the perceived strength of the
opponent’s evidence”); State v. Guilbert, 306
Conn. 218, 263, n. 44 (noting that it is arguable
that excluding expert testimony because of
corroborative evidence might deprive of a
defendant of his right to a meaningful
opportunity to present a complete defense under
Holmes); with People v. Goodwillie, 147 Cal.
App. 4th 695, 730, 54 Cal. Rptr. 3d 601, 629
(2007)(holding that Holmes does not apply to the
California limited admissibility rule because the
defendant is not precluded from presenting his
defense of misidentification, whereas the
defendant in Holmes was precluded from
presenting the defense of third party

34

culpability). Cf. Ferensic v. Birkett, 501 F.3d
469, 478 (6th Cir. 2007)(precluding eyewitness
expert from testifying deprived petitioner of his
constitutional right to present a defense).
This issue is also of nationwide
importance because this Court, like others,
has long been cognizant of the importance and
the fallibility of eyewitness identification. See,
e.g., Perry v. New Hampshire, 565 U.S. 228
(2012) (“[w]e do not doubt either the importance
or the fallibility of eyewitness identifications”);
United States v. Wade, 388 U.S. 218, 228 (1967)
(“The vagaries of eyewitness identification are
well-known; the annals of criminal law are rife
with instances of mistaken identification.
[United States Supreme Court] Justice [Felix]
Frankfurter once said: ‘What is the worth of
identification
testimony
even
when
uncontradicted? The identification of strangers
is proverbially untrustworthy. The hazards of
such testimony are established by a formidable
number of instances in the records of English
and American trials. These instances are
recent—not due to the brutalities of ancient
criminal procedure.’ ”); see also Perry v. New
Hampshire, supra, at 730–31 (Sotomayor, J.,
dissenting) (“[the United States Supreme] Court
has
long
recognized
that
eyewitness

35

identifications' unique confluence of features—
their unreliability, susceptibility to suggestion,
powerful impact on the jury, and resistance to
the ordinary tests of the adversarial process—
can undermine the fairness of a trial”); Watkins
v. Sowders, 449 U.S. 341, 352, (1981) (Brennan,
J., dissenting) (“ ‘[Eyewitness] testimony is
likely to be believed by jurors, especially when it
is offered with a high level of confidence, even
though the accuracy of an eyewitness and the
confidence of that witness may not be related to
one another at all. All the evidence points rather
strikingly to the conclusion that there is almost
nothing more convincing than a live human
being who takes the stand, points a finger at the
defendant, and says “That's the one!” ’ ”);
Kampshoff v. Smith, 698 F.2d 581, 585 (2d
Cir.1983) (“There can be no reasonable doubt
that inaccurate eyewitness testimony may be
one of the most prejudicial features of a criminal
trial. Juries, naturally desirous to punish a
vicious crime, may well be unschooled in the
effects that the subtle compound of suggestion,
anxiety, and forgetfulness in the face of the need
to recall often has on witnesses. Accordingly,
doubts over the strength of the evidence of a
defendant's guilt may be resolved on the basis of
the eyewitness' seeming certainty when he
points to the defendant and exclaims with

36

conviction that veils all doubt, ‘[T]hat's the man!’
”); State v. Ledbetter, 275 Conn. 534, 577, 881
A.2d 290 (2005) ( “courts are not blind to the
inherent risks of relying on eyewitness
identification”), cert. denied, 547 U.S. 1082
(2006); State v. Tatum, 219 Conn. 721, 733, 595
A.2d
322
(1991)
(“[t]he
dangers
of
misidentification are well known and have been
widely recognized by this court and other courts
throughout the United States”); State v. Wright,
147 Idaho 150, 157, 206 P.3d 856 (App.2009)
(“[i]n recent years, extensive studies have
supported a conclusion that eyewitness
misidentification is the single greatest source of
wrongful convictions in the United States”).
Moreover, it has been increasingly
recognized in the scientific literature that
mistaken eyewitness identification is the leading
cause of wrongful convictions in the United
States. See, e.g., Eyewitness Identification Task

Force, Report to the Judiciary Committee of the
Connecticut General Assembly (February 8,

2012) p. 4 (“Mistaken eyewitness identification
is the leading cause of wrongful convictions in
the United States. It is now undisputed that
nationwide, within the past [fifteen] years, 289
persons convicted of serious crimes—mainly
murder and sexual assault—have been

37

exonerated of those crimes by DNA evidence.
More than 75 percent of those convictions rested,
in significant part, on positive, but false,
eyewitness identification evidence. These figures
do not include, of course, the many convictions
for crimes that did not involve DNA evidence;
e.g., the drive-by shootings, the street muggings,
the convenience store robberies, and the
homicides and sexual assaults for which no DNA
evidence may be available.”); see also S. Gross et
al., “Exonerations in the United States 1989
Through 2003,” 95 J.Crim. L. & Criminology
523, 542 (2005) (citing study demonstrating that
64 percent of wrongful convictions involved at
least one erroneous eyewitness identification); J.
McMurtrie, “The Role of the Social Sciences in
Preventing Wrongful Convictions,” 42 Am.Crim.
L.Rev. 1271, 1275 n. 17 (2005) (citing to study
revealing that erroneous identifications have
accounted for up to 86 percent of convictions of
persons ultimately exonerated by DNA testing);
S. Thompson, “Eyewitness Identifications and
State Courts as Guardians Against Wrongful
Conviction,” 7 Ohio St. J. Crim. L. 603, 634
(2010) ( “[m]istaken identification continues to
present a serious danger of convicting innocent
persons, especially in violent crime cases, and
meanwhile the guilty perpetrators remain at
large unbeknownst to the public”); G. Wells et

38

al., supra, at 22 Law & Hum. Behav. 605 (“[i]n
addition to the experimental literature, cases of
proven wrongful convictions of innocent people
have consistently shown that mistaken
eyewitness identification is responsible for more
of these wrongful convictions than all other
causes combined”).
The scientific causes of mistaken
eyewitness
identification
have
become
increasingly well known. See, e.g., S. Clark, “A
Re-examination of the Effects of Biased Lineup
Instructions in Eyewitness Identification,” 29
Law & Hum. Behav. 395, 395–96 (2005); K.
Deffenbacher et al., “Forgetting the Once–Seen
Face: Estimating the Strength of an
Eyewitness's Memory Representation,” 14 J.
Experimental Psychol.: Applied 139,147–48
(2008); K. Deffenbacher et al., “Mugshot
Exposure Effects: Retroactive Interference,
Mugshot Commitment, Source Confusion, and
Unconscious Transference,” 30 Law & Hum.
Behav. 287,306 (2006); K. Deffenbacher et al., “A
Meta–Analytic Review of the Effects of High
Stress on Eyewitness Memory,” 28 Law & Hum.
Behav. 687, 699–704 (2004); A. Douglass & N.
Steblay, “Memory Distortion in Eyewitnesses: A
Meta–Analysis of the Post–Identification
Feedback Effect,” 20 Applied Cognitive Psychol.

39

859, 864–65 (2006); S. Kassin et al., “On the
‘General Acceptance’ of Eyewitness Testimony
Research: A New Survey of the Experts,” 56 Am.
Psychologist 405, 405–406 (2001); J. Pozzulo &
R. Lindsay, “Identification Accuracy of Children
Versus Adults: A Meta–Analysis,” 22 Law &
Hum. Behav. 549, 549–50 (1998); N. Steblay et
al., “Eyewitness Accuracy Rates in Police
Showup and Lineup Presentations: A Meta–
Analytic Comparison,” 27 Law & Hum. Behav.
523, 535–37 (2003); N. Steblay et al.,
“Eyewitness Accuracy Rates in Sequential and
Simultaneous Lineup Presentations: A Meta–
Analytic Comparison,” 25 Law & Hum. Behav.
459, 464 (2001); N. Steblay, “Social Influence in
Eyewitness Recall: A Meta–Analytic Review of
Lineup Instruction Effects,” 21 Law & Hum.
Behav. 283, 284, 294–96 (1997); N. Steblay, “A
Meta–Analytic Review of the Weapon Focus
Effect,” 16 Law & Hum. Behav. 413, 413, 420–22
(1992).
Scientific findings as to the weaknesses of
eyewitness identification which have
now
generally been accepted by courts include: (1)
there is at best a weak correlation between a
witness' confidence in his or her identification
and its accuracy, United States v. Williams, 522
F.3d 809, 811 (7th Cir.2008); United States v.

40

Brownlee, 454 F.3d 131, 142 n. 9, 144 (3d
Cir.2006); United States v. Stevens, 935 F.2d
1380, 1400 (3d Cir.1991); United States v.
Moore, 786 F.2d 1308, 1312 (5th Cir.1986);
People v. McDonald, 37 Cal.3d 351, 369, 690
P.2d 709, 208 Cal.Rptr. 236 (1984), overruled in
part on other grounds by People v. Mendoza, 23
Cal.4th 896, 4 P.3d 265, 98 Cal.Rptr.2d 431
(2000); Johnson v. State, 272 Ga. 254, 256 n. 2,
526 S.E.2d 549 (2000); People v. Young, 7 N.Y.3d
40, 43, 850 N.E.2d 623, 817 N.Y.S.2d 576 (2006);
see also State v. Ledbetter, 275 Conn. 534, 576,
881 A.2d 290 (2005) cert. denied, 547 U.S. 1082
(2006), (2) the reliability of an identification
can be diminished by a witness' focus on a
weapon, United States v. Brownlee, 454 F.3d
131, 136–37 (3d Cir. 2006); United States v.
Smith, 736 F.2d 1103, 1106 (6th Cir.), cert.
denied, 469 U.S. 868 (1984); United States v.
Lester, 254 F.Supp.2d 602, 612 (E.D.Va.2003);
People v. Cornwell, 37 Cal.4th 50, 78, 80, 117
P.3d 622, 33 Cal.Rptr.3d 1 (2005), overruled in
part on other grounds by People v. Doolin, 45
Cal.4th 390, 198 P.3d 11, 87 Cal.Rptr.3d 209
(2009); Benn v. United States, 978 A.2d 1257,
1271 (D.C.2009); Commonwealth v. Christie, 98
S.W.3d 485, 490 (Ky.2002), (3) high stress at the
time of observation may render a witness less
able to retain an accurate perception and

41

memory of the observed events, United States v.
Downing, 753 F.2d 1224, 1231 (3d Cir.1985);
United States v. Smith, 621 F.Supp.2d 1207,
1216 (M.D.Ala.2009); State v. Chapple, 135 Ariz.
281, 294, 660 P.2d 1208 (1983); Brodes v. State,
279 Ga. 435, 438, 614 S.E.2d 766 (2005); People
v. Young, 7 N.Y.3d 40, 43, 850 N.E.2d 623, 817
N.Y.S.2d 576 (2006); State v. Bradley, 181 Ohio
App.3d 40, 44, 907 N.E.2d 1205, appeal denied,
122 Ohio St.3d 1480, 910 N.E.2d 478 (2009); and
(4) cross-racial identifications are considerably
less accurate than same race identifications,
United States v. Rodriguez–Felix, 450 F.3d
1117, 1124 n. 8 (10th Cir.), cert. denied, 549 U.S.
968 (2006); United States v. Harris, 995 F.2d
532, 535 (4th Cir.1993); United States v. Smith,
621 F.Supp.2d 1207, 1215 (M.D.Ala.2009);
United States v. Graves, 465 F.Supp.2d 450, 456
(E.D.Pa.2006); United States v. Lester, 254
F.Supp.2d 602, 612 (E.D.Va.2003); People v.
McDonald, 37 Cal.3d 351, 368, 690 P.2d 709, 208
Cal.Rptr. 236 (1984), overruled in part on other
grounds by People v. Mendoza, 23 Cal.4th 896, 4
P.3d 265, 98 Cal.Rptr.2d 431 (2000); State v.
Copeland, 226 S.W.3d 287, 302 (Tenn.2007).
And just as courts have increasingly come
to the conclusion that the mistaken
identifications are the leading cause of wrongful

42

convictions, there is an equally growing
consensus that expert testimony on the causes of
mistaken identification, is, in part, the cure. See,
Ferensic v. Birkett, 501 F.3d 469, 482 (6th
Cir.2007) (“expert testimony on eyewitness
identifications ... is now universally recognized
as scientifically valid and of aid [to] the trier of
fact for admissibility purposes” [internal
quotation marks omitted] ); United States v.
Smithers, 212 F.3d 306, 313 (6th Cir.2000)
(noting that “the science of eyewitness
perception has achieved the level of exactness,
methodology and reliability of any psychological
research” [internal quotation marks omitted] );
United States v. Moore, 786 F.2d 1308, 1312 (5th
Cir.1986) (“This [c]ourt accepts the modern
conclusion that the admission of expert
testimony regarding eyewitness identifications
is proper.... We cannot say [that] such scientific
data [are] inadequate or contradictory. The
scientific validity of the studies confirming the
many weaknesses of eyewitness identification
cannot be seriously questioned at this point.”
[Internal quotation marks omitted.] ); United
States v. Downing, 753 F.2d 1224, 1242 (3d
Cir.1985) (noting “the proliferation of empirical
research demonstrating the pitfalls of
eyewitness identification” and that “the
consistency of the results of these studies is

43

impressive” [internal quotation marks omitted]
); United States v. Feliciano, United States
District Court, Docket No. CR–08–0932–01
PHX–DGC, 2009 WL 3748588 (D.Ariz.
November 5, 2009) (“[t]he degree of acceptance
[of the scientific data on the reliability of
eyewitness identifications] within the scientific
community ... is substantial”); People v.
McDonald, 37 Cal.3d 351, 364–65, 690 P.2d 709,
208 Cal.Rptr. 236 (1984) (“[E]mpirical studies of
the psychological factors affecting eyewitness
identification have proliferated, and reports of
their results have appeared at an everaccelerating pace in the professional literature of
the behavioral and social sciences.... The
consistency of the results of these studies is
impressive, and the courts can no longer remain
oblivious to their implications for the
administration of justice.” [Citations omitted.] ),
overruled in part on other grounds by People v.
Mendoza, 23 Cal.4th 896, 4 P.3d 265, 98
Cal.Rptr.2d 431 (2000); Brodes v. State, 279 Ga.
435, 440–41, 614 S.E.2d 766 (2005) (scientific
validity of research studies concerning
unreliability of eyewitness identifications is well
established); State v. Henderson, 208 N.J. 208,
218, 27 A.3d 872 (2011) (noting that, “[f]rom
social science research to the review of actual
police lineups, from laboratory experiments to

44

DNA exonerations, [scientific research and
studies demonstrate] that the possibility of
mistaken identification is real,” that many
studies reveal “a troubling lack of reliability in
eyewitness identifications,” and that “[t]hat
evidence offers convincing proof that the current
test for evaluating the trustworthiness of
eyewitness identifications should be revised”);
People v. LeGrand, 8 N.Y.3d 449, 455, 867
N.E.2d 374, 835 N.Y.S.2d 523 (2007) (“[E]xpert
psychological
testimony
on
eyewitness
identification [is] sufficiently reliable to be
admitted, and the vast majority of academic
commentators have urged its acceptance....
[P]sychological research data [are] by now
abundant, and the findings based [on the data]
concerning cognitive factors that may affect
identification are quite uniform and well
documented....” [Citation omitted; internal
quotation marks omitted.] ); State v. Copeland,
226
S.W.3d
287,
299
(Tenn.2007)
(“[s]cientifically tested studies, subject to peer
review, have identified legitimate areas of
concern” in area of eyewitness identifications);
Tillman v. State, 354 S.W.3d 425, 441
(Tex.Crim.App.2011)
(“[E]yewitness
identification has continued to be troublesome
and controversial as the outside world and
modern science have cast doubt on this crucial

45

piece of evidence.... [A] vast body of scientific
research about human memory has emerged.
That body of work casts doubt on some
commonly held views relating to memory....”
[Internal quotation marks omitted.] ); State v.
Clopten, 223 P.3d 1103, 1108 (Utah 2009)
(“empirical
research
has
convincingly
established that expert testimony is necessary in
many cases to explain the possibility of mistaken
eyewitness identification”); State v. Dubose, 285
Wis.2d 143, 162, 699 N.W.2d 582 (2005) (“[o]ver
the last decade, there have been extensive
studies on the issue of identification evidence”).
Several of these issues, extremely
pertinent to the facts of petitioner’s case, would
have been addressed by Dr. Fulero’s excluded
testimony. In particular, Dr. Fulero would have
testified to the importance of “weapons focus”—
a salient issue in view of the officers’ admission
that they identified petitioner based upon a one
second view of his face at a time when their
attention was focused upon the gun in his hand.
Moreover, Dr. Fulero would have also testified as
to the unreliability of cross-racial identifications
in a case where two non-black police officers
were attempting to identify a black suspect.
Finally, he would have testified that certainty
has only a very weak correlation with accuracy.

46

It should also be noted, although it is not
dispositive, that the corroborative evidence
relied upon by the courts below was relatively
weak, consisting of petitioner’s presence on the
“flight path,” the discovery of a weapon along the
flight path, and gunshot residue evidence which
was inconsistent and strongly disputed. Robert
Anderson gave no statement, and no other
witnesses or physical evidence corroborated the
disputed identifications.
Robert Anderson is not asking this Court
to grant the petition to review the question of
whether due process requires the admission of
expert testimony on eyewitness identification in
all cases. Robert Anderson is asking the Court to
grant the petition to review the question of
whether due process permits a court arbitrarily
to exclude otherwise relevant and probative
defense evidence merely because the prosecution
has additional evidence of guilt. If courts can
limit expert testimony to the small minority of
eyewitness identification cases in which the only
evidence against a defendant consists of
eyewitnesses, the dangers of wrongful conviction
will not substantially decrease.
Therefore, this court should grant the

47

petition for certiorari.

48

III:
IN THE ALTERNATIVE, THIS COURT
SHOULD GRANT THE PETITION FOR
LEAVE TO APPEAL UNDER ITS
SUPERVISORY POWER , BUT REMAND TO
THE SEVENTH CIRCUIT WITH
INSTRUCTIONS TO GRANT A CERTIFICATE
OF APPEALABILITY
In the alternative, this court should grant
the petition for leave to appeal and remand with
a supervisory order to the Seventh Circuit to
grant a certificate of appealability. By denying a
certificate of appealability the Seventh Circuit
“sanctioned such a departure by a lower court as
to call for an exercise of the Court’s supervisory
power.” U.S. S. Ct. Rule 10(a).
A habeas petitioner is entitled to a
Certificate of Appealability where, as here, he
has made a substantial showing of the denial of
constitutional right. 28 U.S.C. § 2253 (c)(2).
Specifically, a petitioner must show that
"reasonable jurists could debate ( or for that
matter agree that) the petition should have been
resolved in a different manner or that the issues
presented
were
adequate
to
deserve
encouragement to proceed further." Slack v.

49

McDaniel, 529 U.S. 473, 484 (2000) (quotations
and citations omitted); see also Arrendondo v.
Huibregtse, 542 F.3d 1155, 1165 (7th Cir. 2008);
Wilson v. O'Leary, 895 F.2d 378,381 (7th Cir.
1990)
(discussing
the
Certificate
of
Appealability's predecessor, the Certificate of
Probable Cause To Appeal under § 2254 prior to
the 1996 Anti-Terrorism and Effective Death
Penalty amendments). Bases upon which
Certificates of Appealability have been issued
include: (1) the District Court decided novel,
complex or substantial issues when adjudicating
a claim, Houston v. Lack, 487 U.S. 266, 269
(1988) (question of first impression in District);
Julius v. Jones, 875 F.2d 1520, 1525-26 (11th
Cir.) (state courts refused to reach merits of
Brady claim); (2) the legal or factual rationale
for the District Court's ruling is unclear, see
Barefoot v. Estelle, 463 U.S. 880, 894 n.4 (1983);
(3) proper adjudication of the claim may require
additional
evidentiary
development,
see
Fleming v. Kemp, 794 F.2d 1478 (11th Cir.
1986), Smith v. Wainwright, 737 F.2d 1036, 1037
(11th Cir. 1984) ( certificate granted because
District Court "refused to hold an evidentiary
hearing to develop the true factual setting in
which ... claim must be judged"); and ( 4) a
reasonable doubt exists to whether the district
court fully and fairly adjudicated the matter

50

given its actions and that of the State. 2-35 Fed.
Habeas Prac. & Proc. § 25.4.
In this case, for the reasons given in Points
I and II, reasonable jurists could certainly differ
(or more likely would agree) that Holmes clearly
established a right to have the admissibility of
defense evidence considered without reference to
the strength of the state’s case. Moreover, the
District of Columbia Circuit, which is surely
composed of reasonable jurists, agrees that
Holmes precludes the exclusion of expert
testimony based upon the strength of the
prosecution case. See In re L.C., 92 A.3d 290,
296–97 (D.C. Cir. 2014).
Therefore this court should grant the
petition for writ of certiorari.

51

CONCLUSION
For the foregoing reasons, the petition for
writ of certiorari should be granted.

Respectfully
submitted,
ROBERT
ANDERSON
By:
/s/ Stephen L. Richards
Stephen L. Richards *
Joshua S.M. Richards
53 West Jackson, Suite 756
Chicago, IL 60604
Sricha5461@aol.com
Attorneys for the Petitioner Robert Anderson
* Counsel of Record

1

TABLE OF CONTENTS OF APPENDIX
APPENDIX A (Order of the United States
Court of Appeals for the Seventh Circuit’s
denying petitioner’s application for a certificate
of appealability)……………………………………1

APPENDIX B (Order of the United States
District Court for the Northern District of
Illinois, denying petitioner’s motion to
reconsider the court’s denial of his petition for
habeas corpus and a certificate of appealability)
‘………………………………………………………5

APPENDIX C (Memorandum Opinion and
Order of the United States District Court for
the Northern District of Illinois, denying
petitioner’s petition for habeas corpus and
declining to issue a certificate of appealability)
‘……………………………………………………….8
APPENDIX D (Disposition of the Illinois
Supreme Court denying the petition for leave to
appeal)
…………………………………..………………….33

2

APPENDIX E (Opinion of the Illinois
Court of Appeals)……………………...………34
APPENDIX F (Oral Ruling of the Circuit
Court of Cook County – Criminal Division)
…………………………………………………..105

3

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
________________
No. 19-2329
ROBERT ANDERSON,
PETITIONER-APPELLANT
v.
TERI KENNEDY,
RESPONDENT-APPELLEE
______________
[March 19. 2020]
______________
Before
MICHAEL S. KANNE, Circuit Judge
DIANE S. SYKES, Circuit Judge
______________
Appeal from the United States District Court
for the Northern District of Illinois, Eastern
Division

4

________________
No. 18 C 4916
_______________
Thomas M. Durkin,
Judge
ORDER
Robert Anderson has filed a notice of
appeal from the denial of his petition under 28
U.S.C. § 2254 and an application for a ertificate
of appealability. This court has reviewed the
final order of the district court and the record on
appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. §
2253(c)(2).
Accordingly, the request for a certificate of
appealability is DENIED.

5

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
________________
No. 18 C 4916
________________
ROBERT ANDERSON,
PETITIONER,
v.
TERI KENNEDY,
Warden, Pontiac Correctional Center,
RESPONDENT
______________
[June 13. 2019]
______________
Judge Thomas M. Durkin
______________
ORDER
Robert Anderson has filed a motion to
reconsider the Court’s denial of his petition for
habeas corpus and a certificate of appealability.
R. 14. That motion is denied.

6

Anderson argues that the Court “made a
manifest error of law by ignoring and omitting
all reference to Kubsch v. Neal, 838 F.3d 845,
858 (7th Cir. 2016) (en banc), which was cited by
both parties and extensively discuss[ed] in
[Anderson’s] reply.” R. 14 at 2. According to
Anderson, the Court should “grant the motion
for reconsideration to consider the effect of the
Kubsch factors on the issue in this case and
whether the state court’s action violated the
fundamental principles Kubsch identified in [the
Supreme Court cases of] Chambers, Green,
Crane, Rock, and Holmes.” Id. at 7.
The line of cases discussed in Kubsch
established a criminal defendant’s right to
present evidence “essential” to “a defense.” 838
F.3d at 858 (“the proffered evidence must be
essential to the defendant’s ability to present a
defense”). The Seventh Circuit analyzed this line
of cases and distilled “lessons” for applying that
right. Id.
Although the Court did not expressly
discuss Kubsch in denying Anderson’s petition,
the Court did not ignore it. Indeed, one of the
cases underlying Kubsch was Holmes v. South
Carolina, which formed the primary basis of
Anderson’s petition and which the Court
discussed in detail. See R. 12 (Anderson v.

7

Kennedy, 2019 WL 1489123, at *1 (N.D. Ill. Apr.
4, 2019)). In addressing Holmes, the Court held
that the right established by the line of cases
summarized in Kubsch was not applicable in
this case because that line of cases addressed
exclusion of fact evidence, whereas Anderson’s
petition concerned the exclusion of expert
testimony. Agreeing with decisions of the Ninth
and Sixth Circuits (as well as at least one district
court), this Court held that Holmes and the other
Kubsch cases do not clearly establish a right to
present expert testimony on eyewitness
identification. See R. 12 at 12-13 (citing
Schroeder v. Premo, 712 Fed. App’x 634, 636 (9th
Cir. 2017); Thomas v. Heidle, 615 Fed. App’x
271, 282 (6th Cir. 2015); Stroud v. Brewer, 2018
WL 3417326 (E.D. Mich. July 13, 2018)). And
since only a clearly established constitutional
right can be the basis to grant a habeas petition,
the Court denied Anderson’s petition. In light of
that holding, it was necessary for the Court to
apply the Kubsch factors.
Therefore,
Anderson’s
motion
for
reconsideration because the Court did not apply
the Kubsch factors is denied.

8

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
________________
No. 18 C 4916
________________
ROBERT ANDERSON,
PETITIONER,
v.
TERI KENNEDY,
Warden, Pontiac Correctional Center,
RESPONDENT
______________
[June 13. 2019]
______________
Judge Thomas M. Durkin
______________
MEMORANDUM OPINION AND ORDER
A jury found Robert Anderson guilty of four
counts of first-degree murder. He is serving a life

9

sentence at the Pontiac Correctional Center in
Illinois, in the custody of Warden Teri Kennedy.
Anderson, represented by counsel, seeks a
writ of habeas corpus pursuant to 28 U.S.C. §
2254. The Warden answered the petition seeking
its dismissal. R. 9. For the following reasons,
Anderson’s petition is denied and the Court
declines to issue a certificate of appealability.
Background
Moises Reynoso and Robert Lilligren were
shot and killed just after midnight on March 6,
2003. By chance at the time of the shooting, two
police officers were across the street about 60-65
feet away. When the officers heard the initial
shots, they looked up and saw the final shots.
The shooter then ran towards the officers, but
the officers were separated from the shooter by a
chain-link fence. The shooter’s hood fell back
from his head as he ran past the officers, and
they were momentarily able to see his face from
about 10-15 feet away. They also saw that the
shooter was wearing gloves and holding a gun.
One officer recognized the shooter but could not
immediately remember his name. It was lightly

10

snowing at the time. See R. 10-9 at 138
(XXXXXX-138:6-7) (first officer testimony); R.
10-10 at 108 (YYYYY-108:11) (second officer
testimony).
The officers eventually found a hole in the
fence and chased the shooter until he was still
about feet ahead of one officer and 25-30 feet
ahead of the other. At that point, the officers
heard screaming (which proved to be a friend of
the victims) causing them to turn and head back
to the scene of the shooting. One officer
broadcast a description of the shooter over the
police radio:
“male black, all black—or all dark
clothing.”
See People v. Anderson, 72 N.E.3d 726,
732 (Ill. App. Ct. 1st Dist. 2017). The Illinois
appellate court noted that Anderson “admits on
appeal that he is of ‘African-American ancestry’
but appears to be ‘Caucasian or Hispanic.’” Id.
at 742.
Four minutes later, Anderson was stopped
by other officers several blocks from the scene of

11

the shooting. The arresting officer also retrieved
a pair of gloves he saw Anderson drop.
Approximately 15 minutes later, both officers
who initially gave chase identified Anderson as
the shooter as he sat in a police car. During trial,
one of the officers testified that he later
remembered he had arrested Anderson about 18
months prior. In that instance, the officer was
face to face with Anderson several times for
about two hours in a well-lit police station.
Later that night, another officer attempted
to retrace the shooter’s likely path from the
scene of the shooting to where Anderson was
arrested. Following foot prints in the snow, that
officer discovered a gun on the roof of a garage.
Forensic testing matched the gun to the bullets
found at the scene of the shooting. There were no
fingerprints on the gun or bullet casings. One of
Anderson’s gloves tested positive for gunshot
residue, but samples taken from his coat sleeves
did not.
Reynoso’s sister testified that he used to
be friends with Anderson but they had stopped
spending time together. Nevertheless, the sister

12

testified, Anderson continued to come looking
for Reynoso, and Reynoso avoided him, one time
asking the sister to tell Anderson that Reynoso
wasn’t home.
The jury convicted Anderson on the basis
of this evidence. Prior to trial, Anderson moved
to introduce expert testimony, supported by a
brief, see R. 10-2 at 181-88, and oral argument,
see R. 10-7 at 95-109. In his brief, Anderson
argued that his expert would testify to the
following:
(1) Common misperceptions regarding
eyewitness identifications, including the
following factors relevant to the present case:
confidence is not related to accuracy, stress of
the presence of a weapon reduces the reliability
of identification, eyewitnesses overestimate time
frames, detail salience (unusual details grab
attention but detract overall), the problem of
cross racial identifications, the effect of time on
the reliability of identifications and the
forgetting curve, the impact of partial disguising
features such as a hat covering hair, and global

13

versus detailed eight or build versus facial
features).
(2) Certain identification procedures can
reduce
the
accuracy
of:
eyewitness
identifications, including the following factors
relevant
to
the
present
case:
(A)
suggestivity/bias, and the effects of postidentification feedback.
(3) The generally accepted theory of
memory in the field of psychology and how it
applies to eyewitness identifications (dispelling
common misconceptions about memory working
like a videotape and memories being “etched”
onto your brain, explaining the process how
events can be “remembered” differently than
they actually occurred)
(4) Factors associated with verified cases
of misidentification and as observed in this
particular case.
(5) The eyewitnesses in the present case
are not reliable based on the factors in this
case.

14

R. 10-2 at 181-82. The trial court considered the
briefs and heard oral argument but did not have
the expert testify at a preliminary hearing. The
trial court denied the motion reasoning:
“[T]his case, also contains what could be
considered strong circumstantial evidence on
the route of flight and recovery of gun and
positive gunshot residue that support the
identification. So the case isn’t going to rise or
fall on the identifications of two police officers
alone. . . .

In my view . . . [the] matter at issue,
identification, is not beyond the ken of the
average juror.
...
Expert testimony is not admissible, on
matters of common knowledge unless the
subject is difficult to understand and explain.
Once again my view is that a matter of
identification is a matter of common knowledge
which can be argued effectively either way and

15

which is supported by a [well-settled] jury
instruction . . . .[1]
1 The jury was instructed in relevant part
as follows:
When you weigh the identification
testimony of a witness, you should consider all
the facts and circumstances in evidence,
including, but not limited to, the following:
The opportunity the witness had to view
the offender at the time of the offense.
The witness’s degree of attention at the
time of the offense. The witness’s earlier
description of the offender.
The level of certainty shown by the
witness when confronting the defendant.
The length of time between the offense
and the identification confrontation.
R. 10-14 at 154 (BBBBBB-154).
This is a situation where I don’t think the
witness’ experience and qualifications are
beyond that of the average juror’s and I don’t

16

feel that it will aid the jury in reaching its
conclusion. I feel it would possibly confuse the
jury and possibly mislead the Jury. . . .
A court should carefully consider the
necessity and relevance of the expert testimony
in light of the facts of the case before admitting
it for the jury’s consideration. . . . So when I
consider [the] facts [of this case] and compare
them against some of the facts in cases where
an expert could have been used to aid the jury, I
don’t—I think the facts cut in favor of the State
on this particular case.
R. 10-7 at 106-08.
The appellate court affirmed:
“Here, defendant’s conviction does not rest
solely on the identification made by Officers
Sedlacek and Park. . . . The trial court weighed
the facts and circumstances of this case and
correctly concluded that the conclusion to be
reached would not “rise or fall on the
identification of two police officers alone.” . . .
Here, the trial court did not abuse its
discretion in prohibiting the defense from

17

presenting expert witness on identification
testimony, especially where Dr. Fulero would be
commenting on the “reliability” of these
witnesses, which is clearly a function of the jury,
not a purported expert.
The trial court conducted a meaningful
inquiry of the expert witness and the content to
which he would testify at a hearing on
defendant's motion and, in its discretion, denied
the motion. The record shows that the trial court
balanced the probative value against the
possible prejudice that may arise from allowing
this expert to testify. In addition, the jury was
given an instruction on how to weigh eyewitness
identification testimony. Illinois Pattern Jury
Instructions, Criminal, No. 3.15 (4th ed. 2000).
Therefore, we find that the trial court’s decision
was not arbitrary or unreasonable and does not
amount to an abuse of discretion.

People v. Anderson, 72 N.E.3d at 747-48,
appeal denied, 84 N.E.3d 365 (Ill. 2017), and
cert. denied sub nom. Anderson v. Illinois, 138 S.
Ct. 336 (2017).

18

During closing argument, Anderson’s
counsel addressed facts about the scene that
could undermine the officers’ identification of
Anderson:
Because they want you to think like this,
because there are two officers who basically say
they were able to look from the middle of the gas
station lot, through a chain link fence, [past]
these trees, [past] the street, [past] the sidewalk,
into that parking lot behind Leader Liquors, and
they were able to see a man dressed in all dark
clothing firing a gun.
And they told you not only were they able
to see a man firing a gun, but we were able to see
his face. I put this jacket on, ladies and
gentlemen, when Officer Sedlacek was on the
stand. I won't do it again, but I encourage you
folks when you get back there, put it on, stand at
the other end of the jury room, turn sideways,
put the hood up, and see if [any one] of you can
identify the face of the person who is in that coat.
R. 10-14 at 63-64 (BBBBBB-63:18–64:10).

19

In his opening statement, defense counsel
also several times described the weather at the
time of the shooting and pursuit as a “driving
snowfall.” See, e.g., R. 10-9 at 35 (XXXXX-36:3).
He did not make such an argument in closing,
presumably because this characterization was
contradicted by the officers’ testimony.
Analysis
Anderson raises only one issue in his
petition: whether exclusion of the expert on the
reliability of eyewitness identification violated
his Due Process rights. A writ of habeas corpus
may be granted “with respect to any claim that
was adjudicated on the merits in State court
proceedings” only if “the adjudication of the
claim resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States.”
28 U.S.C. § 2254(d)(1).
The Warden points out that the Supreme
Court has not established a right to present
expert testimony on the reliability of eyewitness

20

identification, and the Seventh Circuit has held
such testimony is generally properly excluded.
See United States v. Carter, 410 F.3d 942, 950
(7th Cir. 2005) (“[T]he credibility of eyewitness
testimony is generally not an appropriate
subject matter for expert testimony because it
influences a critical function of the jury—
determining the credibility of witnesses.”
(quoting United States v. Hall, 165 F.3d 1095,
1107 (7th Cir. 1999)); see also United States v.
Welch, 368 F.3d 970, 973 (7th Cir. 2004) (“In
attempting to show that the district court did
abuse its discretion, Welch faces an uphill battle
against the long line of Seventh Circuit cases
holding that district courts did not commit
abuses of discretion by excluding expert
testimony regarding the reliability of eyewitness
identifications.”). This argument, however,
ignores more recent Seventh Circuit holdings
indicating an openness to such testimony. See
Jimenez v. City of Chicago, 732 F.3d 710, 722
(7th Cir. 2013).
(“Whether expert testimony regarding witness
perception, memory, reliability, and deception
could assist a properly-instructed jury in its task

21

of evaluating trial testimony is controversial.”
(citing Hall, 165 F.3d at 1118 (Easterbrook, J.,
concurring in judgment) (“Jurors who think they
understand how memory works may be
mistaken, and if these mistakes influence their
evaluation of testimony then they may convict
innocent persons . . . . That a subject is within
daily experience does not mean that jurors know
it correctly.”) (emphasis in original))).
In any event, Anderson does not contend
that there is a clearly established right to
present expert testimony on eyewitness
reliability to a jury. See R. 11 at 2 (“Robert
Anderson does not argue he has a constitutional
right to present expert testimony on eyewitness
identification. . . .”).
Rather, Anderson’s petition asserts his
right to present a defense generally, as that right
is set forth in Holmes v. South Carolina, 547 U.S.
319 (2006). See R. 11 at 2 (Anderson argues “only
that the Illinois courts violated his due process
rights under Holmes, by excluding such
testimony because of the perceived strength of
the state’s case.”); see also R. 1 at 33 (“The

22

holding of the Illinois appellate court ‘ignored’
the ‘fundamental principles’ established by
Holmes.”). Anderson contends that Holmes
stands for the principle that the probative value
of
defense evidence may not be assessed
relative to the strength of the prosecution’s
evidence. See id. at 34. Anderson argues that the
state appellate court violated Holmes when it
discounted the probative value of the expert’s
testimony regarding the reliability of eyewitness
testimony because “there was evidence of
[Anderson’s] guilt apart from the eyewitness
identifications.” Id. at 33.
Anderson’s analysis, however, skips prior
steps in the proper analysis of whether a state
court evidentiary ruling violates Due Process.
Due Process “guarantees criminal defendants a
meaningful opportunity to present a complete
defense.” Holmes, 547 U.S. at 324; see also id. at
325 (“the defendant[] [has a] right to put on a
defense”). “This right is abridged by evidence
rules that infringe upon a weighty interest of the
accused and are arbitrary or disproportionate to
the purposes they are designed to serve.” Id. at
324. In other words, “the Constitution thus

23

prohibits the exclusion of defense evidence under
rules that serve no legitimate purpose or that are
disproportionate to the ends that they are
asserted to promote.” Id. at 326.
With respect to the admissibility of expert
testimony regarding eyewitness reliability, the
Illinois Supreme Court has explained:
In Illinois, generally, an individual will be
permitted to testify as an expert if his experience
and qualifications afford him knowledge which
is not common to lay persons and where such
testimony will aid the trier of fact in reaching its
conclusion. In addressing the admission of
expert testimony, the trial court should balance
the probative value of the evidence against its
prejudicial effect to determine the reliability of
the testimony. In addition, in the exercise of its
discretion, the trial court should carefully
consider the necessity and relevance of the
expert testimony in light of the particular facts
of the case before admitting that testimony for
the jury’s consideration. This court has held that
expert testimony is only necessary when the
subject is both particularly within the witness’s

24

experience and qualifications and beyond that of
the average juror’s, and when it will aid the jury
in reaching its conclusion. Expert testimony
addressing matters of common knowledge is not
admissible unless the subject is difficult to
understand and explain. When determining the
reliability of an expert witness, a trial court is
given broad discretion.

People v. Lerma, 47 N.E.3d 985, 992 (Ill.
2016) (internal citations and quotation marks
omitted) (emphasis added). This focus on
whether an expert’s testimony will assist the
trier of fact “in light of the particular facts of the
case” is also present in federal law. See Daubert
v. Merrell Dow Pharm., Inc., 509 U.S. 579, 591
(1993) (Whether “evidence or estimony [will]
‘assist the trier of fact to understand the
evidence or to determine a fact in issue’ . . . . goes
primarily to relevance. The consideration has
been aptly described . . . as one of ‘fit.’”); Owens
v. Auxilium Pharm., Inc., 895 F.3d 971, 973 (7th
Cir. 2018) (“Because Dr. Abbas’s testimony did
not fit the facts of the case, it was not likely to
assist the trier of fact to understand the evidence
or to determine a fact in issue.”); Florek v.

25

Village of Mundelein, 649 F.3d 594, 602- 03 (7th
Cir. 2011) (“In other words, expert testimony is
more likely to satisfy Federal Rule of Evidence
702’s requirement that it ‘assist the trier of fact
to understand the evidence or determine a fact
in issue’ when something peculiar about law
enforcement (e.g., the tools they use or the
circumstances they face) informs the issues to be
decided by the finder of fact. . . . And when the
testimony is about a matter of everyday
experience, expert testimony is less likely to be
admissible.”); see also Poulter v. Cottrell, Inc.,
2014 WL 5293595, at *4 (N.D. Ill. June 24, 2014)
(“Helpfulness is sometimes phrased as a matter
of ‘fit’ between the suggested testimony and the
issue that it is meant to support. . . . If the issue
is ‘peculiar,’ expert testimony is more likely to be
informative and helpful, whereas, ‘when the
testimony is about a matter of everyday
experience, expert
testimony
is
less
likely
to
be
admissible.’” (quoting
Florek, 649 F.3d at 602-03)). In both Illinois and
federal law, courts are to determine the
probative value of expert testimony with regard
to whether the testimony will assist the trier of

26

fact in the context of the facts of the case as a
whole. In order to prevail on his petition,
Anderson would have to demonstrate that
Illinois’s rule governing admission of expert
testimony “serve[s] no legitimate purpose or [is]
disproportionate to the ends that [it is] asserted
to promote.” Holmes, 547 U.S. at 326. But he
makes no such argument. Rather, Anderson’s
argument is based on a superficial analogy
between this rule and the principle set forth in
Holmes that state courts may not exclude
defense evidence because the prosecution’s
evidence is sufficient to convict. He argues that
both the state trial and appellate courts violated
this principle by excluding the expert testimony
on the basis that Anderson’s verdict would “not
rise or fall on the identification of the two police
officers alone” because there was other evidence
of Anderson’s guilt. See R. at 4, 31.
But Holmes reversed a trial court’s
decision to exclude fact evidence implicating a
third party in the crime. It is simply not relevant
to a decision to exclude expert testimony. Any
similarity between the Holmes principle and the
state courts’ decisions disappears in the face of

27

the undeniable substantive difference between
fact evidence and expert evidence. The relevance
of fact evidence is assessed relative to the legal
elements of the ultimate question to be decided.
Assessment of relevance to a particular
legal claim can generally be made without a
broader evidentiary context. Hence, the
principle in Holmes prohibiting weighing of the
relevance of various pieces of evidence. By
contrast, the relevance of expert evidence is
assessed relative to whether it helps the trier of
fact determine a fact in issue that is relevant to
the ultimate question. Whether expert evidence
helps the trier of fact can only be assessed in
light of the other evidence the trier of fact has to
consider.
Without
evidentiary
context,
“helpfulness” has no meaning.
Furthermore, factual context is especially
relevant to determining the “helpfulness” of
expert testimony on the reliability of eyewitness
identification in particular. As many courts have
noted,
lay jurors have personal experience with

28

common circumstances relevant to the
reliability of eyewitness identification—e.g.,
distance, obstructed views, time to observe.
Notably, all of these factors were present in
Anderson’s case.
This is in contrast to People v Lerma
where the Illinois Supreme Court affirmed
reversal of the trial court’s exclusion of expert
testimony because in that case the only
evidence against the defendant was eyewitness
identification that occurred in circumstances
that might not cause a lay juror to question its
reliability without assistance from expert
testimony. Unlike the defendant in Lerma, it
was possible for Anderson to make a case for
the unreliability of the eyewitness identification
through aggressive cross examination and
argument, without the need for expert estimony
on the issue.
In any case, to the extent Anderson
argues (1) that the appellate court misapplied
the Illinois

29

rule regarding exclusion of expert testimony, or
(2) that the Supreme Court would disagree with
Illinois’s rule regarding the relevance of expert
evidence, those arguments are beside the point.
Rather, the salient point here is that the
right set forth in Holmes is not relevant, or at
least not clearly relevant, to interpretation of a
rule governing potential exclusion of expert
testimony. Thus, Anderson has not identified a
“clearly established” right that was violated in
his case. Other courts have reached similar
conclusions. See Schroeder v. Premo, 712 Fed.
App’x 634, 636 (9th Cir. 2017) (“Schroeder has
not shown that this exclusion of the testimony
was contrary to, or an unreasonable application
of, clearly established federal law relating to
broad principles of admissibility of evidence in
criminal proceedings. Schroeder has also
failed to demonstrate the existence of
any contradictory clearly established law
governing the more specific proposition of
admissibility of expert testimony on eyewitness
identification. Indeed, we have consistently
affirmed the exclusion of this type of expert
testimony under less- demanding, less-

30

deferential tests than the one AEDPA imposes
on reviewing federal courts.”); Thomas v. Heidle,
615 Fed. App’x 271, 282 (6th Cir. 2015) (“The
Supreme Court has not directly spoken on the
law applicable to the circumstances of this case.
And we can grant relief only if we conclude that
the exclusion of Loftus's testimony in this
particular case was ‘so lacking in justification
that there was an error well understood and
comprehended in existing law beyond any
possibility for fairminded disagreement.’
Present-day case law demonstrates that fairminded jurists still disagree on the exclusion of
expert testimony on eyewitness identification,
even when it is effectively excluded on a blanket
basis.”); Stroud v. Brewer, 2018 WL 3417326
(E.D. Mich. July 13, 2018) (“[T]he Supreme
Court has never held that a state trial court’s
exercise of discretion to exclude expert testimony
violates a criminal defendant’s constitutional
right to present a defense. Habeas relief is not
warranted on this claim.”). Therefore,
Anderson’s petition is denied.
Lastly, the Court declines to issue a
certificate of appealability pursuant to 28

31

U.S.C. § 2253(c)(2). Rule 11(a) of the Rules
Governing § 2254 Cases provides that the
district court “must issue or deny a certificate of
appealability when it enters a final order
adverse to the applicant.” See Gonzalez v.
Thaler, 132 S.Ct. 641, 649 n.5 (2012). To obtain
a certificate of appealability, a habeas petitioner
must make “a substantial showing of the
denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). This demonstration
“includes showing that reasonable jurists could
debate whether (or, for that matter, agree that)
the petition should have been resolved in a
different manner or that the issues presented
were adequate to deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S.
473, 483-84 (2000); see also Lavin v. Rednour,
641 F.3d 830, 832 (7th Cir. 2011). For the
reasons discussed, Anderson has not made such
a showing. Accordingly, certification of
Anderson’s claim for appellate review is denied.

32

Conclusion
For the foregoing reasons, Anderson’s
petition, R. 1, is denied. The Court also declines
to issue a certificate of appealability.

33

34

35

APPENDIX A
IN THE SUPREME COURT OF ILLINOIS
________________
No. 121923
PEOPLE OF THE STATE OF ILLINOIS,
PLAINTIFF-APPELLANT
v.
ROBERT ANDERSON, DEFENDANTAPPELLEE
______________
[May 24, 2017]
______________
Disposition: Petition for leave to appeal
denied.

36

APPENDIX B
IN THE APPELLATE COURT OF ILLINOIS
FIRST DISTRICT, SECOND DIVISION
________________
No. 1–12–2640
PEOPLE OF THE STATE OF ILLINOIS,
PLAINTIFF-APPELLANT
v.
ROBERT ANDERSON, DEFENDANTAPPELLEE
______________
[January 31, 2017]
______________

OPINION
JUSTICE PIERCE delivered the judgment of
the court, with opinion.
¶ 1 Defendant Robert Anderson was convicted of
four counts of first degree murder (720 ILCS 5/9–
1(a)(1) (West 2012)) related to the shooting

37

deaths of Moises Reynoso and Robert Lilligren.
Defendant was subsequently sentenced to life in
prison. Defendant now appeals and raises eight
issues: (1) the State failed to prove him guilty
beyond a reasonable doubt; (2) the trial court
erred in admitting hearsay testimony; (3) the
trial court erred by precluding defense counsel
from questioning Officer Jeong Park as to
whether he would describe defendant as “black”;
(4) the trial court erred when it excluded
evidence of defendant's prior acquittal for an
unrelated charge; (5) the trial court erred in
denying defendant's motion in limine for expert
testimony on eyewitness identification; (6) the
trial court abused its discretion in denying
defendant's motion for new trial in light of
allegedly newly discovered evidence; (7) the
prosecutor's remarks in closing argument were
prejudicial and denied defendant a fair trial; and
(8) the trial court erred in denying his request
for a new trial based on his allegations of
ineffective assistance of counsel. For the
following reasons, we affirm the judgment of the
trial court.
¶ 2 BACKGROUND
¶ 3 On March 6, 2003, Moises Reynoso and
Robert Lilligren were shot to death as they sat
in a vehicle in the parking lot behind Leader

38

Liquors, just north of the intersection of Irving
Park Road and Sacramento Avenue in Chicago.
¶ 4 Shortly before midnight on March 5, 2003,
Chicago police officers Paul Sedlacek and Jeong
Park received a call requesting a well-being
check on the attendant of the Clark Gas Station
at the intersection of Sacramento Avenue and
Irving Park Road. The officers arrived at the gas
station in less than a minute. As the officers got
out of their car, they heard gunshots coming
from a parking lot on the west side of
Sacramento Avenue across from the gas station.
¶ 5 Officer Sedlacek heard five or six shots
initially. The shots came from the center of the
parking lot behind Leader Liquors where a silver
car was parked. A man, who was later identified
as defendant, was standing near the rear
passenger's side, next to the trunk, firing
approximately five shots into the vehicle.
Defendant then moved around the back of the
vehicle, stood next to the tire on the driver's side,
and fired one shot at the driver who appeared to
be trying to exit the vehicle. Defendant was 60 to
65 feet away from the officer in a well-lit area.
There was a six-foot tall chain link fence
between Officer Sedlacek and defendant, but he
could easily see through it. Officer Sedlacek saw
defendant's face but not clearly enough to make

39

an identification. Officer Sedlacek testified
defendant was wearing a dark jacket and dark
pants. Reynoso was the driver of that car, and
Lilligren was the passenger.
¶ 6 After firing the last shot at Reynoso,
defendant ran east along the alley toward the
gas station where the officers were. A chain link
fence enclosed the area, and the officers had to
find a hole in the fence so that they could access
the alley. The officers also ran east, parallel to
defendant, until they found the opening in the
fence, at the far northeast corner of the gas
station parking lot. The officers had to run
around the mini-mart, which was about 20 feet
wide, and could not see the defendant while he
was behind it.
¶ 7 When defendant ran past the officers, he
turned his head and looked at them. Officer
Sedlacek was able to see defendant's face from
approximately 10 to 15 feet away for about a
second. Defendant's hood had fallen from his
head when he turned, giving Officers Sedlacek
and Park a full-frontal view of his face. There
were street lights in the alley. Officer Park also
saw the defendant was wearing gloves and
holding a gun in his right hand. Officer Park
radioed that defendant was running eastbound
in the alley north of Irving Park Road.

40

Defendant had a gun in his right hand. Officer
Sedlacek testified that he “fixated on that gun
[and] did not observe his left hand.” Officer
Sedlacek testified that at the time of the
shooting, he recognized defendant's face but
could not remember his name.
¶ 8 The officers chased defendant east through
the alley to Richmond Street, where defendant
turned north. By the time he turned, defendant
was 25 to 30 feet in front of Officer Sedlacek and
about 15 feet ahead of Officer Park, who saw
defendant heading east into a gangway about
mid-block on Richmond Street. When the officers
reached Richmond Street, they heard “panicked
shrieking” that was “[e]xtremely loud, as loud as
someone could shriek.” The officers turned
around and ran back to where the shrieking
came from. When they arrived back at the scene
of the shooting they found Roberta Stiles
screaming “my cousin, my cousin.” Officer Park
broadcasted defendant's description over the
police radio as a “male black, [wearing] all
black—or all dark clothing.” Officer Park
testified that in the “heat of the moment, I saw a
person wearing all black, running eastbound,
carrying a gun. That's what I went [with] on the
air.”

41

¶ 9 The officers observed Reynoso, the driver of
the car, lying on the ground next to the car,
bleeding from a gunshot wound to the head. He
was pronounced dead at the scene. Lilligren, who
was seated in the passenger's seat of the vehicle,
was also bleeding. Officer Sedlacek testified that
he recognized Officer Reynoso from previous
interactions.
¶ 10 Chicago police officer Joseph Castillo
arrested defendant about four minutes after
Officers Park and Sedlacek stopped chasing him.
He was apprehended by Officer Castillo after a
foot chase through a gangway and a parking lot.
During the chase, Officer Castillo saw defendant
throw something down, which he recovered and
identified as a pair of black gloves. Along with
the gloves, Officer Castillo recovered a
checkbook that did not bear defendant's name.
¶ 11 Approximately 15 minutes after the
shooting, defendant was placed in a squad car
and brought back to the scene. Officer Sedlacek
was instructed to look inside the car to see if he
could identify defendant as the shooter. Officer
Sedlacek “looked inside, the offender looked at
me, I said, ‘Yes, that's the person I saw shoot.’ ”
After Officer Sedlacek identified defendant as
the shooter, defendant vomited in the car.
Officer Park viewed defendant in the back of the

42

police car separately and also identified
defendant as the shooter. Defendant again
vomited after he was identified as the shooter by
Officer Park.
¶ 12 Officer Sedlacek testified that he recognized
the defendant but could not initially recall his
name. He later discovered that he had arrested
defendant, along with Reynoso and Terry Hill, in
an unrelated case in July 2001. Officer Sedlacek
testified and identified defendant at the trial for
defendant's unrelated case, which took place a
little less than a year before the shooting in this
case. He knew defendant as “Nookie.” Officer
Sedlacek also identified photographs of Hill,
whom he knew as “Terry,” and a photograph of
Jesus Quinones, whom he knew as “Blood.” He
stated he saw defendant, Reynoso, and Hill in
the early morning hours of July 1, 2001, when he
arrested all of them for aggravated battery in an
unrelated incident. Officer Sedlacek testified
that during the prior investigation he was faceto-face with defendant several times and was
within several feet of defendant for about two
hours in a lit police station.
¶ 13 Between the time Officer Sedlacek observed
the shooting and the show-up identification of
defendant, he did not report on the radio that the
shooter was defendant or that the shooter was

43

nicknamed “Nookie.” He did not tell the superior
officers at the scene that he knew defendant and
had previously arrested him. Officer Park also
testified that Officer Sedlacek never indicated
that he knew defendant from a previous arrest.
¶ 14 In Officer Sedlacek's incident report, he
listed himself and Officer Park as people who
discovered and reported the crime but did not
check the box indicating they witnessed the
crime. Officer Sedlacek wrote that he “saw an
individual standing next to a silver car, firing a
handgun into the vehicle,” and that person was
“a male black in his 20's wearing a dark jacket.”
The report did not include the fact that Officer
Sedlacek saw the front of the man's face as he
was running past the officers in the alley. The
report also did not include that the man was
wearing gloves and did not detail that the man
was “wearing a parka with the hood up and fur
trim around the hood.” Officer Sedlacek did not
include the information that the man stood near
the rear passenger's side tire or that he looked
both ways before firing the last shot. The
additional information that defendant had
vomited after he was identified as the shooter
was also not included in Officer Sedlacek's
report.

44

¶ 15 Officer Castillo testified he was on duty on
March 6, 2003. Officer Castillo was working
alone, in uniform, and driving an unmarked
squad car. Just after midnight, Officer Castillo
heard a radio call announcing shots fired near
the intersection of Sacramento Avenue and
Irving Park Road. The description given was
“male black in all dark clothing.” He then heard
Officer Park make another radio call stating
“731, we lost him in the alley, one block east of
the gas station. If someone can secure our car,
well, it's the gas station lot, when we heard the
victim screaming.” Officer Castillo was only a
few blocks away. He drove down California
Avenue to Belle Plaine Avenue, one block north
of Irving Park Road. He stopped, walked west on
Belle Plaine Avenue until he reached the northsouth alleyway between California Avenue and
Mozart Street, and walked south through the
alley.
¶ 16 Defendant then ran out from an east-west
gangway at 4035 North Mozart Street into the
alley where Officer Castillo was walking. Officer
Castillo was approximately 10 feet away from
defendant when he came out of the gangway.
Defendant was wearing dark clothing, a “[b]lack
parka type jacket.” Defendant fit the description
Officer Castillo heard over the radio. Officer

45

Castillo yelled at defendant to stop and
announced “police,” but defendant continued
running. When Officer Castillo first saw
defendant, he did not notice if defendant had
anything in his hands.
¶ 17 Officer Castillo chased defendant, who ran
onto California Avenue. Defendant ran south
through a parking lot located on the northwest
corner of California Avenue and Irving Park
Road and was stopped by another police car. As
the police car was approaching, Officer Castillo
saw defendant throw a pair of black gloves,
which he later recovered. Officer Castillo then
placed defendant into custody. Officer Castillo
also recovered a checkbook that was found next
to the gloves. The checkbook was not in
defendant's name, and Officer Castillo did not
see it drop from defendant's hands. Officer
Castillo put the gloves and checkbook in his
pocket and later turned them over to the
evidence technicians. Officer Castillo showed
Chicago police sergeant Rick Nigro the gangway
that he saw defendant run out of.
¶ 18 Sergeant Nigro then drove to the scene of
the shooting and attempted to retrace
defendant's steps from the shooting to the
gangway. Sergeant Nigro walked east from the
scene of the shooting through the alley where the

46

radio broadcast had reported defendant was
running. He conducted a systematic search of
the gangways and alleyways and looked for
footprints in the snow. He searched for
approximately one hour and eventually “saw
some footprints on the side of [a] garage,” which
led him to search for a gun in that area. The
garage was located at 4036 North Mozart Street.
Sergeant Nigro climbed to the second level of a
neighboring porch so he could see the roof of the
garage. From the higher vantage point, he could
see “a hole in the snow” in the middle of the roof.
He called for a ladder, climbed on top of the roof,
and found a semiautomatic handgun.
¶ 19 Chicago police forensic investigator Jim
Shadir and his partner, Arthur Oswald,
photographed the gun as it was found and then
inventoried the weapon. The gun was a black
.40–caliber Beretta model 8040 Cougar F, which
had a defaced serial number. The gun was in
slide lock, which meant that all the bullets that
were in the weapon had been expended.
Investigator Shadir also recovered an empty
black .40–caliber Smith and Wesson magazine
from the gun. There were no latent fingerprints
on the gun, the magazine, or the cartridge cases.
¶ 20 Investigators Shadir and Oswald also
processed the scene of the shooting at

47

approximately 12:53 a.m. Investigator Shadir
photographed the crime scene and recovered one
.40–caliber Smith and Wesson cartridge case on
the ground in the snow near the driver's side
door of the vehicle, and five .40–caliber Smith
and Wesson cartridge cases on the ground in the
snow near the passenger's side of the vehicle.
Shadir inventoried the cartridge cases to be
submitted for forensic analysis. While at the
scene, he also received a pair of black gloves and
a checkbook from Officer Castillo, which he
inventoried for analysis. Investigator Shadir
then went to the hospital where Lilligren was
taken and recovered and inventoried Lilligren's
jacket.
¶ 21 Dr. John Scott Denton, former Cook County
medical examiner, performed an autopsy on
Lilligren and stated that he been shot three
times. None of the gunshot wounds were close
range. Dr. Denton concluded that Lilligren was
struck by at least two, possibly three, different
gunshots
and
concluded
that
the
gunshot wound to the back of Lilligren's head
caused his death. The manner of death was
homicide.
¶ 22 Dr. Denton reviewed the autopsy of
Reynoso. Reynoso suffered 11 gunshot wounds.
Three bullets were recovered from his clothing,

48

and two more bullets were recovered from his
body. Each of the bullets was inventoried. None
of the gunshot wounds were at close range. The
first gunshot wound was located in Reynoso's
chest, on the right side. A second
gunshot wound was located at the left lateral
chest, and a third gunshot wound was just below
the second at the left lateral chest. A fourth
gunshot wound was located at the right side of
Reynoso's back, just below the shoulder blade. A
fifth gunshot wound was located in his back and
entered through the eleventh rib on the right
side. A sixth gunshot wound was the result of a
bullet that went through the right chest and
exited through the abdomen. A seventh
gunshot wound was located in the right forearm.
An eighth gunshot wound was located on the left
hand, which had numerous injuries on the palm
and fingers, which were classified as
defensive wounds. A ninth gunshot wound, a
graze, was located at the left upper arm. A tenth
gunshot wound was located at the back left of
Reynoso's head. This bullet traveled through the
scalp, bone, and brain and lodged in the bone
behind the left ear. Dr. Denton determined that
Reynoso died from multiple gunshot wounds,
and the manner of death was homicide. The
location of the gun relative to the victims' bodies
could not be determined, only the course the

49

bullet took once it had entered the bodies. It was
Dr. Denton's opinion that some of the bullets
fired at Reynoso may have caused more than
one wound.
¶ 23 Chicago police forensic investigator Steven
Duffy went to the medical examiner's office on
March 6, 2003, and received an envelope
containing the bullets recovered from Reynoso's
body. Investigator Duffy then submitted those
bullets for forensic testing.
¶ 24 Forensic scientist Kurt Zielinski specializes
in firearms identification for the Illinois State
Police lab and supervised the testing performed
on the recovered firearm, magazine, cartridge
casings, and bullets. The firearm and magazine
were capable of holding 11 bullets, 10 in the
magazine and 1 in the chamber of the firearm.
Forensic testing revealed that all six of the
cartridge cases found next to the vehicle and all
five bullets recovered from the victims' bodies
and clothing were fired from the same gun found
by Sergeant Nigro on the garage roof.
¶ 25 Forensic scientist Mary Wong specializes in
trace chemistry for the Illinois State Police lab.
Wong tested the black knit gloves for gunshot
residue. One glove tested positive for the
presence of gunshot residue. The other glove

50

“had two unique particles and some consistent
particles” but not enough to make a positive
finding. Defendant's coat was tested for gunshot
residue and samples taken from the cuffs of both
sleeves revealed “they both contained particles
of background samples which [led] to a
conclusion that the sample areas may not have
been in the vicinity of a discharged firearm” but
the samples taken from the jacket did not test
positive for the unique particles of gunshot
residue. Wong testified that the absence of
gunshot residue may have been the result of
particles having been removed by activity. Wong
stated that wind, moisture, and friction from
brushing up against something could all remove
gunshot residue or prevent it from being
deposited. Wong added that a difference in fabric
may also account for gunshot residue being
deposited on one item but not another. The
absence of gunshot residue was only on the
specific areas tested, and it could not be
concluded that there was a complete absence of
gunshot residue on defendant's jacket.
¶ 26 Lorena Reynoso, Reynoso's sister, testified
that approximately 10 days before the shooting,
she was home with Reynoso in the evening and
there was a knock at the door. She answered the
door and saw defendant with two people she

51

knew as “Blood” and “Terry.” Lorena knew
defendant by the nickname “Nookie.” Lorena
had known defendant for three years and had
lived with him and his family for approximately
three months in 2000. Defendant asked Lorena
where Reynoso was. Lorena then had a
conversation with Reynoso, after which she
returned to the door and told defendant and the
other two men that Reynoso was not home, so
they left. Defendant had previously come to the
house looking for Reynoso on five to seven
separate occasions, beginning in November or
December 2002. A few of those times defendant
came with “Blood” and “Terry.” Each time
defendant came looking for Reynoso, it was
approximately 7 p.m. Prior to late 2002, Reynoso
and defendant had been friends and spent time
together every day. They stopped spending time
together around November or December 2002.
¶ 27 Reynoso and Lorena had another brother,
Renee, who was also friends with defendant.
Renee also stopped spending time with
defendant in November or December 2002.
When defendant came by asking for Reynoso, he
did not ask for Renee.
¶ 28 Lorena testified that she did not tell anyone
about these visits until January 2005, when she
was interviewed by Assistant State's Attorney

52

Brogan and a State's Attorney investigator
about an unrelated case. At the time Lorena was
on probation for concealing a fugitive, an exboyfriend. Additionally, two of her ex-boyfriends
had been charged with murder, one of which was
the fugitive Lorena was charged with concealing.
¶ 29 After the State rested, the court denied
defendant's motion for a directed verdict.
¶ 30 Roberta Stiles testified on defendant's
behalf. Stiles was Lilligren's aunt. She testified
that before midnight on March 5, 2003, she saw
Lilligren on Irving Park Road near the
intersection of Francisco Avenue. She and
Lilligren went to a friend's house to eat and then
went to the gas station on Irving Park Road. The
attendant was not there, so she went to a
payphone to call the police. Lilligren then went
to her friend Rex's apartment, located above the
rear parking lot of Leader Liquors. Before they
walked up the stairs, Reynoso drove up, parked
the car, and joined them. Stiles, Lilligren, and
Reynoso all went to Rex's apartment. After a few
minutes, she went to the bathroom, and Lilligren
and Reynoso left. She heard gunshots coming
from outside. When she went outside she saw
Reynoso lying face down in the snow outside the
open driver's side door of his car. She ran to
Reynoso, turned him over, and saw that he had

53

a blue cell phone in his hands. She took the
phone. Lilligren was in the passenger side of the
car; after she saw him, she started screaming
and became hysterical. She tried to make a call
on Reynoso's cell phone but could not get the call
to go through.
¶ 31 Stiles ran through the alley towards her
family's home at 4012 North Richmond Street.
She screamed when she arrived at the house,
and her mother and brother came out. She did
not remember if there were any police cars
around at that time. Officers eventually
approached her when she was in the alley. She
did not remember if those were the first officers
she spoke to that night. She went back to the
scene with the officers. She did not remember
how long she stayed at the scene or which officer
she gave Reynoso's cell phone to. She told officers
that she, Reynoso, and Lilligren were in Rex's
apartment above the back parking lot. She also
spoke with a detective sometime later but did not
remember when. Stiles spoke with defense
counsel and his investigator, Josh Byrne, about
a report that Byrne had created. She did not
remember if she was given a copy of that report.
The report was a written account of an interview
of Stiles which she signed. In that report, she
stated she saw Reynoso face down in the snow

54

but did not see anyone running in the alley or
any police cars in the area, including in the gas
station parking lot. This interview took place in
January 2008.
¶ 32 Stiles testified that she did not witness the
shooting and did not remember many things
that happened that night. Sergeant David Betz
was taking notes as she talked to him, and she
told him that she had been in a bar earlier that
night. Stiles testified that she did not remember
if she told Sergeant Betz that she was with
Lilligren in the apartment above the parking lot
before the shooting. She stated, “I don't
remember everything. I mean this was almost
nine years ago.” She added she was not looking
at the gas station parking lot when she ran by it.
She testified she remembered everything
leading up to the shooting, but after seeing
Lilligren shot in the head, “[y]ou're not going to
remember who is around, who you're talking to.”
¶ 33 In rebuttal, the State called Sergeant David
Betz, who testified he spoke with Stiles at the
scene of the shooting at approximately 12:40
a.m., and the conversation took place in a squad
car because of the weather. He stated Stiles had
a strong odor of alcohol and cigarettes. She told
him she had been drinking at a bar down the
street earlier that night. Stiles told him that

55

when she saw Lilligren she started screaming
for the police, and they arrived immediately. She
never told Betz she had been in an apartment
above Leader Liquors that night, and she did not
give him the names of anyone who lived in that
building.
¶ 34 Chicago police detective Dino Amato also
testified in rebuttal. He interviewed Stiles at
4:00 a.m. on March 21, 2003. The interview took
place at her home with two other detectives
present. Stiles told him that she met up with
Lilligren on Irving Park Road, after she had just
left a bar, and they went to the gas station
together. She also told Detective Amato that the
police arrived immediately after she found
Lilligren shot in the car. She added that she
called the police when she could not find the gas
station attendant; she then went to Riza Dauti's
house. She stated she was there with Lilligren
and Reynoso. She went to the bathroom, heard
shots fired, and then went outside and found
that Lilligren and Reynoso had been shot. She
did not tell the detectives that she ran down the
alley after finding the shooting victims or that
she spoke with her family at her house.
Detective Amato testified that the detectives
attempted to find someone in the apartments
above the Leader Liquors parking lot on the

56

night of the shooting but could not gain access
because the entrance door was locked. The State
rested.
¶ 35 The jury found defendant guilty on both
counts of first degree murder and sentenced him
to life imprisonment. He now appeals.
¶ 36 ANALYSIS
¶ 37 Defendant argues he was not proven guilty
of the murders of Reynoso and Lilligren beyond
a reasonable doubt because Officer Sedlacek's
and Officer Park's identifications were
insufficient to support his convictions beyond a
reasonable doubt. Defendant also questions
Officer Sedlacek's credibility because he was
unable to identify defendant by name at the
scene and in his incident reports.
¶ 38 On appeal, when the defendant challenges
the sufficiency of the evidence, the reviewing
court must determine, after viewing the
evidence in the light most favorable to the State,
whether any rational trier of fact could have
found the essential elements of the crime beyond
a reasonable doubt. Jackson v. Virginia, 443
U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979). A reviewing court affords great deference
to the trier of facts and does not retry the

57

defendant on appeal. People v. Smith, 318
Ill.App.3d 64, 73, 251 Ill.Dec. 639, 740 N.E.2d
1210 (2000). “[A] reviewing court must allow all
reasonable inferences from the record in favor of
the [State].” People v. Cunningham, 212 Ill.2d
274, 280, 288 Ill.Dec. 616, 818 N.E.2d 304 (2004).
A criminal conviction will not be reversed
“unless the evidence is so improbable or
unsatisfactory that it creates a reasonable doubt
as to the defendant's guilt.” People v. Graham,
392 Ill.App.3d 1001, 1009, 331 Ill.Dec. 507, 910
N.E.2d 1263 (2009).
¶ 39 It is within the function of the trier of fact
to assess the credibility of the witnesses,
determine the appropriate weight of the
testimony,
and
resolve
conflicts
or
inconsistencies in the evidence. Id. It is not the
duty of the trier of fact to accept any possible
explanation that favors the defendant's
innocence and “elevate it to the status of
reasonable doubt.” People v. Siguenza–Brito,
235 Ill.2d 213, 229, 336 Ill.Dec. 223, 920 N.E.2d
233 (2009). A reviewing court will not substitute
its judgment for that of the trier of fact. People
v. Sutherland, 223 Ill.2d 187, 242, 307 Ill.Dec.
524, 860 N.E.2d 178 (2006).
12¶ 40 Here, defendant alleges that the
identification testimony of both Officers

58

Sedlacek and Park was insufficient to support
his conviction. Illinois applies the following
factors to assess identification testimony: (1) the
opportunity the witness had to view the criminal
at the time of the crime; (2) the witness's degree
of attention; (3) the accuracy of the witness's
prior description of the criminal; (4) the level of
certainty demonstrated by the witness at the
identification confrontation; and (5) the length of
time between the crime and the identification
confrontation. Neil v. Biggers, 409 U.S. 188,
199–200, 93 S.Ct. 375, 34 L.Ed.2d 401
(1972); People v. Slim, 127 Ill.2d 302, 307–08,
130 Ill.Dec. 250, 537 N.E.2d 317 (1989). “A single
witness' identification of the accused is sufficient
to sustain a conviction if the witness viewed the
accused under circumstances permitting a
positive identification.” Slim, 127 Ill.2d at 307,
130 Ill.Dec. 250, 537 N.E.2d 317.
3¶ 41 With respect to the first and second
factors, the witness's opportunity to observe the
offender during the incident and the degree of
attention, defendant argues that Officers
Sedlacek and Park would not have enough time,
as they were chasing him through the alley, to
see his face and be able to correctly identify him.
Defendant adds both officers testified that they
were looking at the gun in his hand as they were

59

chasing him. However, both officers testified
that as defendant was running, his hood fell
back, allowing them to see an unobstructed view
of his face from a distance of 10 to 12 feet away
in a well-lit alley. They positively identified him
only 15 to 20 minutes later. We find Officers
Sedlacek and Park had ample opportunities to
view defendant, and they testified to a degree of
detail that would allow the jury to make a
determination as to the appropriate weight to be
given their identification testimony.
¶ 42 Third, we consider the accuracy of the
witness's description of defendant. The officers
witnessed defendant, who was armed, kill two
people and gave chase. While Officer Park's
description of defendant was somewhat general,
the description of the fleeing offender given over
the radio was accurate to the extent that it
matched the defendant running through the
neighborhood gangways within four minutes of
the shooting in close proximity to the scene.
Fourth, we consider the level of certainty the
witness demonstrates in identifying defendant
as the offender. Both officers identified
defendant without hesitation shortly after
seeing his face in the alley. Finally, we consider
the amount of time between the commission of
the crime and the identification. As stated, the

60

officers identified defendant about 15 to 20
minutes after the shooting. After considering all
five Biggers factors, we find the officers'
identification testimony to be reliable. Officer
Sedlacek's inability to recall defendant's name at
the scene in no way impugns his credibility or his
subsequent identification of defendant.
¶ 43 Defendant further argues that outside of
the identification testimony provided by Officers
Sedlacek and Park, very little evidence linked
him to the murder of Reynoso and Lilligren. We
disagree.
¶ 44 Officers Sedlacek and Park witnessed the
shooting and then chased defendant through the
alley. During this chase, the officers were able to
see a full-frontal view of defendant's face in welllit conditions. Officer Sedlacek recognized
defendant but did not remember his name. In
less than five minutes, defendant was
apprehended four blocks from the scene of the
shooting. The gun used in the shooting was
recovered from the roof of a garage located in the
path the shooter took when chased by the police
between the scene of the shooting and where
defendant was first seen by Officer Castillo.
Officer Castillo observed defendant throw a pair
of black gloves on the ground, which later tested
positive for gunshot residue. Lorena Reynoso

61

testified that her brother and defendant had
been friends, but in the months leading up to the
murder, Reynoso did not want to speak to
defendant when he came to his home looking for
him.
¶ 45 Defendant was seen running from the area
of the shooting and matched the general
description of the offender. Defendant's flight
from Officer Castillo and the officers who
witnessed the shooting is considered evidence of
his guilt. Defendant was identified as the
shooter less than 15 minutes afterwards. He was
wearing clothing that matched the clothing worn
by the shooter. The murder weapon was found
on the route the shooter took when running from
the scene to where he was first observed by
Officer Castillo minutes after the shooting.
Viewing the evidence in the light most favorable
to the State, as we must, we find that the totality
of the evidence was more than sufficient to
establish defendant's guilt beyond a reasonable
doubt.
¶ 46 Defendant has also attacked the sufficiency
of the physical evidence, the lack of conclusive
trace material, the checkbook found alongside
the gloves, and the lack of DNA evidence. The
jury resolved the evidence in favor of the State,

62

and we cannot say it was the act of an irrational
jury.
¶ 47 Defendant next argues that the trial court
erred when it denied his motion in limine to
preclude the State from introducing hearsay
evidence that Reynoso was avoiding defendant.
The trial court denied this motion and ruled that
the State could introduce evidence that, after
defendant knocked on Lorena's door, Lorena
went and spoke with her brother, came back to
the door, and told defendant that her brother
was not home.
¶ 48 At trial, Lorena testified that
approximately a week and a half before
Reynoso's death, she was at home with him
when defendant came to her door with two other
men she knew as “Blood” and “Terry.” Defendant
asked where Reynoso was. Lorena went back
and spoke with Reynoso and then returned to
the door and told defendant that Reynoso was
not there.
45¶ 49 Reviewing courts generally use an abuse
of discretion standard to review evidentiary
rulings rather than review them de novo. People
v. Caffey, 205 Ill.2d 52, 89, 275 Ill.Dec. 390, 792
N.E.2d 1163 (2001). Defendant argues that this
court should review this issue using the de

63

novo standard and states “an appellate court
should review de novo where the trial judge's
decision ‘involves a legal issue and did not
require the trial court to use its discretion
regarding fact-finding or assessing the
credibility of witnesses.’ ” People v. Aguilar, 265
Ill.App.3d 105, 109, 202 Ill.Dec. 485, 637 N.E.2d
1221 (1994). This exception to the general rule of
deference applies in cases where “a trial court's
exercise of discretion has been frustrated by an
erroneous rule of law.” People v. Williams, 188
Ill.2d 365, 369, 242 Ill.Dec. 260, 721 N.E.2d 539
(1999).
¶ 50 In People v. Caffey, 205 Ill.2d 52, 89, 275
Ill.Dec. 390, 792 N.E.2d 1163 (2001), the
defendant also requested the reviewing court to
apply a de novo standard to evidentiary rulings
regarding hearsay. Our supreme court rejected
this argument and stated,
“The decision whether to admit evidence cannot
be made in isolation. The trial court must
consider a number of circumstances that bear on
that issue, including questions of reliability and
prejudice. [Citation.] In this case, the trial court
exercised discretion in making these evidentiary
rulings, i.e., the court based these rulings on the
specific circumstances of this case and not on a

64

broadly applicable rule.” Id. at 89–90, 275
Ill.Dec. 390, 792 N.E.2d 1163.
Here, the trial court based its ruling on the
circumstances of the case and therefore,
following Caffey,
we
reject
defendant's
argument that the trial court's decision to admit
the testimony of Lorena should be reviewed de
novo, and instead, we will apply the abuse of
discretion standard.
6¶ 51 “Evidentiary rulings are within the sound
discretion of the trial court and will not be
reversed unless the trial court has abused that
discretion.” People v. Reid, 179 Ill.2d 297, 313,
228 Ill.Dec. 179, 688 N.E.2d 1156 (1997); Caffey,
205 Ill.2d at 89, 275 Ill.Dec. 390, 792 N.E.2d
1163. An abuse of discretion will be found only
where the trial court's ruling is arbitrary,
fanciful, unreasonable, or where no reasonable
person would take the view adopted by the trial
court. Caffey, 205 Ill.2d at 89, 275 Ill.Dec. 390,
792 N.E.2d 1163; People v. Illgen, 145 Ill.2d 353,
364, 164 Ill.Dec. 599, 583 N.E.2d 515 (1991).
¶ 52 Hearsay is “a statement, other than one
made by the declarant while testifying at the
trial or hearing, offered to prove the truth of the
matter asserted.” Ill. R. Evid. 801(c) (eff. Jan. 1,
2011). A statement is an oral or written

65

assertion, or non-verbal conduct of a person if it
is intended by the person as an assertion. Ill. R.
Evid. 801(a) (eff. Jan. 1, 2011). Assertive
conduct, as well as actual statements, may
constitute hearsay. People v. Orr, 149 Ill.App.3d
348, 362, 102 Ill.Dec. 772, 500 N.E.2d 665 (1986).
A statement that is offered for some other
reason, not to prove the truth of the matter
asserted, is generally admissible because it is
not hearsay. People v. Hill, 2014 IL App (2d)
120506, ¶ 51, 380 Ill.Dec. 815, 9 N.E.3d 65.
¶ 53 Defendant argues that the only purpose of
Lorena's testimony was to assert that Reynoso
had made a statement to Lorena that he was
fearful of the defendant. However, Lorena did
not testify to any statement by Reynoso or that
Reynoso made any assertion of fear. She simply
testified, that approximately a week and a half
before Reynoso's death, she was at home with
her brother. Defendant came to her door with
two other men she knew as “Blood” and “Terry.”
Defendant asked where Reynoso was. Lorena
was asked the following questions and gave the
following answers:
“Q: “After they asked if [Reynoso] was home, did
you have a conversation with [Reynoso]?”
A: “Right.”

66

Q: “After that conversation with [Reynoso], did
you then talk to [defendant]?”
A: “Right.”
Q: “What did you say to [defendant]?”
A: “That [Reynoso] wasn't there.”
Q: “Did those three individuals then leave at
that point?”
A: “Right.”
¶ 54 The testimony complained of here is not
hearsay, as there is no mention of assertive
conduct by Reynoso, nor does it contain any
verbal conversation that took place between
Reynoso and Lorena. She did not testify to
anything that could be considered assertive
conduct, let alone conduct that could be
considered as an assertion offered to prove the
truth of some relevant fact.
7¶ 55 The defendant further argues that
Lorena's testimony was prejudicial because the
State offered no further evidence to suggest
motive other than this incident. The State is not
required to prove motive in order to convict the
defendant of first degree murder. People v.
Shack, 396 Ill. 285, 292, 71 N.E.2d 633 (1947).
Furthermore, prejudice to the defendant is one

67

of the factors weighed by the trial court and is
taken into consideration with the relevance of
the testimony.
¶ 56 The trial court limited the testimony to
what Lorena said and did, and the content of her
discussion with Reynoso was not permitted.
Therefore, we find that the trial court did not
abuse its discretion in allowing the testimony of
Lorena.
8¶ 57 Defendant next argues that the trial court
erroneously precluded defense counsel from
cross-examining Officer Park regarding whether
or not he would describe defendant as “black.”
The following exchange took place during the
trial:
“[Defense counsel]: If you—the defendant over
there, the guy you identified. If you were—if you
were going to identify that person for those
people right now, would you—
State: Objection, Judge.
The Court: Sustained.
[Defense counsel]:—would you say that person
was black?
State: Objection.

68

The Court: Sustained.
[Defense counsel]: That's how you
describe that person, is black?

would

State: Objection.
The Court: Sustained.”
¶ 58 Defendant argues that by sustaining the
prosecutor's objections to this line of
questioning, the trial court erred because it
precluded him from cross-examining Officer
Park about the description he gave of the
offender whom he later identified to be
defendant.
Defendant
argues,
without
elaboration, that his sixth amendment right to
cross-examination was violated when the court
precluded defense counsel from cross-examining
Officer Park as to whether he would describe
defendant as “black.” Defendant argues that
Officer Park's response to this inquiry would go
to his credibility and the reliability of his
identification. We disagree.
¶ 59 Again, defendant claims that this issue
should be reviewed de novo. For the reasons
already stated, we review this issue for abuse of
discretion.

69

910¶ 60 Defendant correctly asserts that the
sixth amendment to the Constitution guarantees
the right of an accused in a criminal prosecution
to be confronted with the witnesses against
him. U.S. Const., amend. VI. Confrontation
means “more than being allowed to confront the
witness physically.” Davis v. Alaska, 415 U.S.
308, 315, 94 S.Ct. 1105, 39 L.Ed.2d 347 (1974).
This right applies to federal and state
proceedings. Pointer v. Texas, 380 U.S. 400, 85
S.Ct. 1065, 13 L.Ed.2d 923 (1965).
1112¶ 61 We recognize defendant's sixth
amendment right, but note that while a trial
court may not deprive a defendant of the right to
question witnesses, it may limit the scope of
cross-examination. People v. Frieberg, 147 Ill.2d
326, 357, 168 Ill.Dec. 108, 589 N.E.2d 508 (1992).
The latitude permitted on cross-examination is
left largely to the discretion of the trial court,
and its determination will not be overturned
absent a clear abuse of discretion that resulted
in manifest prejudice. People v. Herrera, 238
Ill.App.3d 284, 290, 179 Ill.Dec. 435, 606 N.E.2d
267 (1992). Here, defendant was not precluded
from cross-examining Officer Park. Defense
counsel cross-examined Officer Park at length.
Defendant was merely precluded from pursuing
this line of questioning.

70

¶ 62 While the State did not offer the basis of its
objection to this line of questioning, and the trial
court did not give its reason for sustaining those
objections, we can determine from the record
before us that the evidence defendant was
attempting to elicit during Officer Park's crossexamination was not relevant.
¶ 63 Evidence is relevant if it has any tendency
to make the existence of any fact that is of
consequence to the determination of the action
more or less probable than it would be without
the evidence. Ill. R. Evid 401 (eff. Jan. 1, 2011).
Irrelevant evidence is inadmissible. Ill. R. Evid
402 (eff. Jan. 1, 2011). The question seemingly
asked to impeach Officer Park's credibility was,
“If you—the defendant over there, the guy you
identified. If you were—if you were going to
identify that person for those people right now,
would you—” “—would you say that person was
black,” was asking Officer Park to identify the
race of the defendant at the time of the trial. The
admissibility of evidence that is collateral to an
issue in a case and that is intended to affect the
credibility of a witness rests within the sound
discretion of the trial court, and the decision to
exclude certain collateral evidence will not be
disturbed absent an abuse of discretion.
See People v. Renslow, 98 Ill.App.3d 288, 293–

71

94, 53 Ill.Dec. 556, 423 N.E.2d 1360
(1981); People v. Stack, 311 Ill.App.3d 162, 178–
79, 243 Ill.Dec. 770, 724 N.E.2d 79 (1999).
¶ 64 Officer Park testified that he “saw him
shooting into a car, and he was running with a
gun, and I did my best, gave a description” that
described the shooter as “a male” “dressed in all
black, and he was a male black.” Each individual
juror was able to observe defendant's
appearance in open court and presumably made
independent determinations as to whether the
defendant fit the description given at the time of
the shooting (“male black”). It is within the
function of the trier of fact to assess the
credibility of the witnesses, determine the
appropriate weight of the testimony, and resolve
conflicts
or
inconsistencies
in
the
evidence. People v. Graham, 392 Ill.App.3d
1001, 1009, 331 Ill.Dec. 507, 910 N.E.2d 1263
(2009).
¶ 65 As defendant acknowledges in his brief, the
attempted impeachment of Officer Park was
complete simply when he admitted his prior
description of defendant as “black” and looking
at the defendant. Defendant admits on appeal
that he is of “African–American ancestry” but
appears to be “Caucasian or Hispanic.”
Defendant argues, “[e]ither answer Park could

72

have given would have damaged his credibility:
Had he answered that he would describe
Anderson as black he would have appeared to be
a liar, and had he answered he would describe
Anderson as white or Hispanic he would have
contradicted one of the few details of his prior
description.” Although the court did not permit
defense counsel to ellicit testimony from Officer
Park regarding his opinion of defendant's race,
defendant was not restricted from crossexamining Officer Park about the description he
relayed over the radio as the events were
unfolding. Defendant made his point by
highlighting Officer Park's radio description as
the offender being “black” and allowing the jury
to draw their own conclusion as to whether this
tended to support a conclusion that defendant
was the offender Officer Park saw that evening.
The issue of whether defendant fit the
description Officer Park gave during the incident
was addressed by the defendant in opening
statement and thoroughly exhausted during the
trial. There is no question the jury understood
the point. Therefore, we find that the trial court
did not abuse its discretion in precluding Officer
Park from testifying about whether he would, at
trial, describe defendant as “black.”

73

¶ 66 Defendant also argues that the trial court
erred when it precluded defendant from crossexamining Officer Sedlacek about whether
defendant was acquitted in a prior case.
Defendant argues that his sixth amendment
right was also violated by this ruling.
¶ 67 On direct examination, Officer Sedlacek
was asked whether he “recognized the defendant
from before.” Officer Sedlacek responded, “[y]es,
sir.” When asked what defendant's nickname
was, Officer Sedlacek replied, “Nookie.” On
cross-examination, defense counsel questioned
Officer Sedlacek about how and why he was
familiar with defendant “from before.” Officer
Sedlacek testified that he previously arrested
defendant along with Hill and Reynoso in July
2001 for the aggravated battery of a man named
Edward Binabi. That trial was held on April 8,
2002, and Officer Sedlacek testified at that trial.
¶ 68 The State objected and during a discussion
with the court, the defense stated it was
attempting to cross-examine Officer Sedlacek as
to the fact that defendant was acquitted of the
aggravated battery charge, and the defense
wanted to elicit this testimony to establish that
Officer Sedlacek had a motive to falsely identify
defendant in this case. The trial court ruled that
the acquittal was not relevant.

74

¶ 69 Defendant again argues that this issue
should be reviewed de novo. However, as we
have stated the review of an evidentiary ruling
will be reviewed under the abuse of discretion
standard.
14¶ 70 As previously stated, the sixth
amendment right to cross-examination is not
without limit. “A judge may limit the scope of
cross-examination, and unless the defendant can
show his or her inquiry is not based on a remote
or uncertain theory, a court's ruling limiting the
scope of examination will be affirmed.” People v.
Tabb, 374 Ill.App.3d 680, 689, 312 Ill.Dec. 470,
870 N.E.2d 914 (2007). “The admissibility of
evidence rests within the discretion of the trial
court, and its decision will not be disturbed
absent an abuse of that discretion.” People v.
Pikes, 2013 IL 115171, ¶ 12, 376 Ill.Dec. 314, 998
N.E.2d 1247.
¶ 71 The fact that defendant was acquitted of the
aggravated battery charge does not alone
suggest that Officer Sedlacek had a motive or
bias to falsely identify defendant as the shooter
in this case. Officer Sedlacek testified about
other facts of defendant's aggravated battery
case during direct examination, including that
he had previously arrested defendant in 2001,
that Reynoso and Hill were also charged in the

75

same case, and that he testified at the
aggravated battery trial on April 18, 2002.
Officer Sedlacek added that he had responded to
the scene of an alleged battery on June 27, 2001
and spoke to the victim and that Chicago Police
Detective Murphy was a witness to the
altercation. Officer Sedlacek arrested defendant
on July 1, 2001, and had him transported to the
police station. While there, Officer Sedlacek sat
face-to-face with defendant in a well-lit room for
approximately two hours. Officer Sedlacek
testified further on cross-examination that he
first recognized defendant in this case when he
was 10 to 12 feet away from defendant chasing
him in the alley.
¶ 72 In People v. Buckner, 376 Ill.App.3d 251,
255, 315 Ill.Dec. 87, 876 N.E.2d 87 (2007), this
court examined whether the trial court properly
limited cross-examination for bias where the
State's DNA expert was serving an 18–month
supervision for unearned overtime pay,
including overtime pay for working on the
defendant's case. This court ruled the evidence
failed to show that the witness had either the
motive or the ability to falsify her testimony and
noted that the proffered “evidence must give rise
to the inference that the witness has something
to lose or gain by testifying.” Id.

76

¶ 73 In this case, the argument proffered by the
defendant that because defendant was acquitted
in the aggravated battery case involving Officer
Sedlacek, Officer Sedlacek had a motive to
“either consciously or subconsciously” falsely
identify defendant is pure conjecture and did not
tend to establish that Officer Sedlacek harbored
any bias towards defendant. Notably, defendant
did not deny the arrest or the circumstances
surrounding the aggravated battery, instead
choosing to focus on Officer Sedlacek's previous
arrest of defendant, the time he spent with him,
and how this familiarity should have caused him
to identify defendant by name at the scene.
¶ 74 Officer Sedlacek's testimony regarding
defendant's prior arrest was not elicited by the
State as other crimes evidence. Rather, it was
raised by defendant for the first time on crossexamination. The State, on direct examination,
merely asked Officer Sedlacek whether he
recognized defendant. It was defense counsel
that delved further into the circumstances
surrounding that prior meeting. Officer
Sedlacek's only role in the prior case was that he
arrested defendant based on the victim's
complaint. This testimony is simply part of his
ordinary duties as a police officer and without
more does not establish grounds to infer bias as

77

a result of an acquittal. Therefore we cannot say
that the trial court abused its discretion in
denying defendant's request.
1516¶ 75 Even if the trial court should have
admitted testimony regarding defendant's
acquittal in the aggravated battery case, the
court's failure to allow this testimony is
harmless error. To determine whether an error
is harmless beyond a reasonable doubt we must
consider (1) whether the error contributed to the
defendant's conviction, (2) whether the other
evidence in this case overwhelmingly supported
the defendant's conviction, and (3) whether the
excluded evidence would have been duplicative
or cumulative. People v. Blue, 205 Ill.2d 1, 26,
275 Ill.Dec. 376, 792 N.E.2d 1149 (2001).
¶ 76 The evidence of defendant's acquittal would
not have been cumulative or duplicative. In
addition, as discussed, the other evidence in this
case, both physical and circumstantial,
overwhelmingly
supports
defendant's
conviction. We also fail to see how the exclusion
of testimony regarding defendant's acquittal in
an unrelated aggravated battery case would
contribute to his conviction.
17¶ 77 Defendant next argues that the trial
court erred when it denied his motion in

78

limine to introduce the testimony of an expert
witness on eyewitness identification. Prior to
trial, defendant moved in limine to allow
testimony by Dr. Solomon Fulero, an expert on
eyewitness testimony. After arguments, the trial
court denied the motion.
¶ 78 A criminal defendant's right to due process
and a fundamentally fair trial includes the right
to present witnesses on his or her own
behalf. People v. Lerma, 2014 IL App (1st)
121880, ¶ 35, 385 Ill.Dec. 537, 19 N.E.3d
95 (Lerma I); People v. Wheeler, 151 Ill.2d 298,
305, 176 Ill.Dec. 880, 602 N.E.2d 826 (1992). “In
Illinois, generally, an individual will be
permitted to testify as an expert if his experience
and qualifications afford him knowledge which
is not common to lay persons and where such
testimony will aid the trier of fact in reaching its
conclusion.” People v. Enis, 139 Ill.2d 264, 288,
151 Ill.Dec. 493, 564 N.E.2d 1155 (1990). Expert
testimony
addressing
matters
of
common knowledge is not admissible “unless the
subject is difficult to understand and
explain.” People v. Becker, 239 Ill.2d 215, 235,
346 Ill.Dec. 527, 940 N.E.2d 1131 (2010). In
addressing the admission of expert testimony,
the trial judge should balance the probative
value of the evidence against its prejudicial

79

effect to determine the reliability of the
testimony. Enis, 139 Ill.2d at 290, 151 Ill.Dec.
493, 564 N.E.2d 1155. Furthermore, the
necessity and relevance of the expert testimony
should be carefully considered in light of the
facts of the case. Id.; People v. Tisdel, 338
Ill.App.3d 465, 468, 273 Ill.Dec. 273, 788 N.E.2d
1149 (2003) (“Trial courts should carefully
scrutinize the proffered testimony to determine
its relevance—that is, whether there is a logical
connection between the testimony and the facts
of the case.”). Relevant and probative testimony
should be admitted, whereas misleading or
confusing
testimony
should
not
be
admitted. Tisdel, 338 Ill.App.3d at 468, 273
Ill.Dec. 273, 788 N.E.2d 1149. When
determining the reliability of an expert witness,
the trial judge is given broad discretion. Enis,
139 Ill.2d at 290, 151 Ill.Dec. 493, 564 N.E.2d
1155. Therefore, we review the trial court's
decision to admit evidence, including expert
witness testimony, for an abuse of that
discretion. Becker, 239 Ill.2d at 234, 346 Ill.Dec.
527, 940 N.E.2d 1131. Arbitrary, fanciful, or
unreasonable decisions by the trial court
constitute an abuse of discretion. Id.
¶ 79 In People v. Lerma, 2016 IL 118496, 400
Ill.Dec. 20, 47 N.E.3d 985 (Lerma II), our

80

supreme court was presented with a similar
issue. The defendant was convicted of first
degree murder after the evidence established
that defendant, known as “Lucky,” approached
the front steps of a home where he shot two
people. The female victim dragged the
critically wounded male victim into the house.
The male victim, in the presence of his father
(who came onto the scene after hearing gunshots
and his son's screaming) and the female victim,
stated that “Lucky” shot me. There was
testimony that “Lucky” lived across the street
from the house where the victims were shot, one
victim had been friends with “Lucky” for years,
and “Lucky” had been fighting with a member of
one of the victim's family. The two victims were
African–American while the defendant was
Hispanic. Id. ¶ 5. The identification of defendant
as the shooter was established through the
testimony of the surviving victim and the father
of the deceased victim about the dying
declaration of the decedent.
¶ 80 The trial court initially denied defendant's
motion in limine seeking to present the
testimony of Dr. Fulero, an expert witness on
eyewitness identification. Defendant submitted
a detailed motion containing Fulero's proposed
testimony, consisting of a summary of the

81

relevance of that testimony to the issues in that
case and a detailed report authored by Dr.
Fulero. Id. ¶ 8. After examination, the trial court
denied this motion, finding that the
eyewitnesses who identified “Lucky” knew him
prior to the shooting and therefore were less
likely to “misidentify someone they have met or
know or [have] seen before than a stranger.” The
trial court also found that because the
eyewitnesses knew the defendant, Dr. Fulero's
testimony was irrelevant and “ran the risk” of
“operating as his opinion on the credibility” of
the eyewitnesses. (Internal quotation marks
omitted.) Id. ¶ 10. During the trial, defendant
renewed his request for expert testimony and
stated he had secured a different expert who
would be able to testify regarding eyewitness
testimony. Id. ¶ 14. The trial court again
rejected this motion, citing the same reasons
given in the denial of the first motion. Id. ¶ 16.
¶ 81 During trial, after the State had presented
the eyewitness testimony, defense counsel
renewed his motion to call an identification
expert. Id. ¶ 14. Because Dr. Fulero had since
passed away, defense counsel tendered a report
authored by Dr. Geoffrey Loftus, an expert in the
field of human perception and memory, in
support of his renewed motion. Dr. Loftus's

82

report tracked the content of Dr. Fulero's report,
except in two instances. First, Dr. Loftus stated
that he would not “issue judgments” about
whether witnesses' memories or assertions were
correct and that any part which implied the
unreliability of the eyewitness should not be
construed as meaning that the defendant was
innocent. Second, Dr. Loftus's report discussed
the issues involved with acquaintance
identifications. Id. ¶ 14.The trial court denied
the renewed motion stating that his denial was
“consistent with the reasons * * * set forth in
detail when [the court] made the ruling on your
similar motion with respect to Dr. Fulero.”
(Internal quotation marks omitted.) Id. ¶ 16.
Defendant was convicted and appealed.
¶ 82 On appeal, this court reversed the trial
court's ruling denying the admission of expert
testimony of the matter of eyewitness
identification and remanded the case. Lerma I,
2014 IL App (1st) 121880, 385 Ill.Dec. 537, 19
N.E.3d 95. This court found because the trial
court “failed to conduct a meaningful inquiry”
(internal quotation marks omitted) into the
proposed testimony of Dr. Loftus, instead relying
on its reasons for denying the admission of Dr.
Fulero's testimony, it committed reversible
error. Id. ¶ 37. This court stated, “We also find it

83

difficult to accord the customary degree of
deference to the trial court's discretion in this
case because the trial court, in relying on its
prior ruling, explained itself with little more
than a series of conclusions based on its personal
belief.” Id. ¶ 38. The State appealed.
¶ 83 Our supreme court found the issue to be
addressed as “whether the trial court abused its
discretion in denying defendant's request to
allow Dr. Loftus's expert testimony on the
reliability of eyewitness identifications.” Lerma
II, 2016 IL 118496, ¶ 24, 400 Ill.Dec. 20, 47
N.E.3d 985. Before addressing the merits of the
State's argument, the Lerma II court recognized
that the research concerning eyewitness
identification is well-settled and well-supported
and “in appropriate cases a perfectly proper
subject for expert testimony.” Id.
¶ 84 The Lerma II court began its analysis by
stating that “this is the type of case for which
eyewitness testimony is both relevant and
appropriate” given that the only evidence of the
defendant's
guilt
was
the
eyewitness
identifications made by two witnesses. Id. ¶ 26.
There was no physical evidence and no
confession or other incriminating statements.
The court held that the trial court abused its
discretion in denying defendant's request to

84

admit Dr. Loftus's expert testimony, finding the
trial court's reasoning to be troublesome and
stating, “even if [the trial court's reasoning] is
defensible as to Dr. Fulero's expected testimony,
it is not defensible as to Dr. Loftus's expected
testimony,” where Dr. Loftus's report addressed
two important issues not addressed by Dr.
Fulero: the acquaintance identification and his
statement that he would not include any opinion
on the credibility of any witness or
identification. Id. ¶ 28.
“As discussed above, what we have in this case
is the trial court denying defendant's request to
present relevant and probative testimony from a
qualified expert that speaks directly to the
State's only evidence against him, and doing
so *747 **59 for reasons that are both expressly
contradicted by the expert's report and
inconsistent with the actual facts of the case. A
decision of that nature rises to the level of both
arbitrary and unreasonable to an unacceptable
degree, and we therefore find that the trial
court's decision denying defendant's request to
admit Dr. Loftus's expert testimony was an
abuse of discretion.” Id. ¶ 32.
¶ 85 The court further found that the error was
not harmless because “there [was] no question
that the error contributed to the defendant's

85

conviction,” it could not “be said that the other
evidence in the case overwhelmingly supported
the defendant's conviction,” and “the excluded
testimony from [the expert] was neither
duplicative nor cumulative of other evidence, as
the jury in this case heard precisely nothing in
the nature of expert eyewitness testimony.” Id. ¶
33.
¶ 86 We find Lerma II distinguishable from the
instant case. Here, defendant's conviction does
not rest solely on the identification made by
Officers Sedlacek and Park. Not only did the
officers see defendant shoot the victims, they
chased him through an alley. After they lost
sight of him, another officer saw the defendant
who was wearing clothes that matched a radio
broadcast that described the shooter, running
through a gangway and alley near the shooting,
and defendant was detained four blocks from the
shooting only four minutes after it had occurred.
In addition, defendant was seen throwing down
a pair of black gloves that later tested positive
for gunshot residue. Additionally, the murder
weapon was found on the route between where
Officers Sedlacek and Park chased defendant
and where Officer Castillo later observed him
running. Defendant was then identified
separately by both Officer Sedlacek and Officer

86

Park only 20 minutes after the shooting. The
trial court weighed the facts and circumstances
of this case and correctly concluded that the
conclusion to be reached would not “rise or fall
on the identification of two police officers alone.”
Unlike Lerma, there was physical and
circumstantial evidence outside of the
identification
testimony
that
supported
defendant's conviction.
¶ 87 Furthermore, unlike Lerma, there was no
report submitted by Dr. Fulero in this case, nor
did the defense submit a detailed motion
containing the proposed testimony of Dr. Fulero
or a summary of the relevance of that testimony
to the issues in this case. Instead, the defense
submitted a generalized motion indicating that
Dr. Fulero would testify to common
misconceptions
regarding
eyewitness
identifications, the accuracy of eyewitness
identifications and the effect of suggestivity or
bias,
how
memory
effects
eyewitness
identification, “factors associated with verified
cases of misidentification and as observed in this
particular case,” and that “the eyewitnesses in
the present case are not reliable based on the
factors in this case.”
¶ 88 Here, the trial court did not abuse its
discretion in prohibiting the defense from

87

presenting expert witness on identification
testimony, especially where Dr. Fulero would be
commenting on the “reliability” of these
witnesses, which is clearly a function of the jury,
not a purported expert. The trial court conducted
a meaningful inquiry of the expert witness and
the content to which he would testify at a
hearing on defendant's motion and, in its
discretion, denied the motion. The record shows
that the trial court balanced the probative value
against the possible prejudice that may arise
from allowing this expert to testify. In addition,
the jury was given an instruction on how to
weigh eyewitness identification testimony.
Illinois Pattern Jury Instructions, Criminal, No.
3.15 (4th ed. 2000). Therefore, we find that the
trial court's decision was not arbitrary or
unreasonable and does not amount to an abuse
of discretion.
¶ 89 Even if this was the type of case for which
expert eyewitness testimony was relevant and
appropriate, which it is not, the trial court's
denial of defendant's request is a harmless error.
To determine whether an error is harmless
beyond a reasonable doubt we must consider (1)
whether the error contributed to the defendant's
conviction, (2) whether the other evidence in this
case overwhelmingly supported the defendant's

88

conviction, and (3) whether the excluded
evidence would have been duplicative or
cumulative. Blue, 205 Ill.2d at 26, 275 Ill.Dec.
376, 792 N.E.2d 1149.
¶ 90 While Dr. Fulero's testimony would not
have been cumulative or duplicative, the
exclusion of his testimony cannot be said to have
contributed to defendant's conviction. As
discussed, the other evidence in this case, both
physical and circumstantial, overwhelmingly
supports defendant's conviction.
25¶ 91 Defendant also argues that the trial court
erred when it denied his motion for a new trial
where he presented newly discovered evidence
that the murders were committed by Jesus
Quinones and Angel Rosa.
¶ 92 At the hearing on his motion for a new trial
defendant argued there was newly discovered
evidence that Jesus “Blood” Quinones and Angel
“JR” Rosa committed the murders. This evidence
consisted of inculpatory hearsay statements
made by Quinones and Rosa admitting to
committing the murders of Reynoso and
Lilligren, and exculpating defendant. After an
extensive evidentiary hearing, the trial court
denied defendant's motion for a new trial based
on newly discovered evidence. The trial court

89

ruled the newly presented evidence was not of
such a conclusive character as to warrant a new
trial because the evidence against defendant at
trial was not closely balanced. The trial court
further ruled that the evidence allegedly
establishing that the murders were committed
by Quinones and Rosa was not “newly
discovered” because it was “known by maybe
even the defendant according to one of the
witnesses prior to trial,” and because it could
have been discovered prior to trial in the exercise
of due diligence. The trial court finally noted that
this evidence was immaterial.
¶ 93 Reynoso and Lilligren were murdered on
March 5, 2003. Defendant's trial began on
November 2, 2011. Quinones, also known as
“Blood,” died in March 2004, and Rosa, also
known as “JR,” died in August 2007.
¶ 94 To warrant a new trial based on newly
discovered evidence, the evidence must (1) have
been discovered since the trial, (2) must be of
such a character that it could not have been
discovered prior to trial with the exercise of due
diligence, (3) must be material to the issue and
not merely cumulative, and (4) must be of such a
conclusive character that it will likely change
the result on retrial. People v. Gabriel, 398
Ill.App.3d 332, 350, 338 Ill.Dec. 607, 924 N.E.2d

90

1133 (2010). The trial court's denial of a motion
for a new trial based on newly discovered
evidence will be reversed on appeal if the trial
court abused its discretion. People v. Villareal,
201 Ill.App.3d 223, 229, 147 Ill.Dec. 77, 559
N.E.2d 77 (1990).
¶ 95 Defendant presented the testimony of five
witnesses, four of who were his friends and one
who was his sister. All of the witnesses, except
his sister, claimed to have heard one or both of
the alleged shooters, Quinones or Rosa, admit to
committing the murders of Reynoso and
Lilligren. Quinones and Rosa, who are
now deceased, were also friends with the
defendant.
¶ 96 Anela Pehlivanovic testified that in the
summer of 2003, she asked “Blood” what was
going on with defendant's murder case, and
“Blood” said, “[w]e took care of that anything
[sic] nigga.” Anela did not know who the “we”
“Blood” spoke of referred to and admitted “we”
could have meant “Blood” and defendant. Anela
also testified the reason she never told defendant
what “Blood” said, even though she visited
defendant in prison, was because the “we”
defendant referred to may have meant the
defendant. This statement did not exclude
defendant's participation in the murders and

91

was not conclusive enough to change the result
at retrial. Furthermore, the evidence was known
before trial and through due diligence could have
been discovered prior to defendant's trial. The
trial court properly denied defendant's motion
regarding Anela's testimony.
¶ 97 James Jones testified that both “Blood” and
“JR” confessed to him several months after these
murders took place. James was contacted by
defendant's sister, Susan, after defendant was
convicted. She contacted James because
defendant (after he began to proceed pro
se posttrial) gave her a list of names of people
who may have information. Since defendant
knew to ask James for information regarding the
murders, this information could have been
discovered before the trial. The trial court
properly denied defendant's motion regarding
James's testimony.
¶ 98 Mercedes Rodriguez testified that three
days after the murders, “Blood” and “JR”
confessed to committing the murders. Rodriguez
visited defendant nine times prior to his trial,
but after both “Blood” and “JR” had died, and
never told defendant or anyone else about the
confessions. Despite this, she did not come
forward until nine and a half years after the
murders took place. Her testimony may also

92

have been discovered through due diligence prior
to trial, and the trial court properly denied
defendant's motion regarding Rodriguez's
testimony.
¶ 99 The testimony of Irving Gonzalez
establishes that all the substance of the
purported testimony from Anela, James, and
Rodriguez was known before trial. Gonzalez
testified that “JR” confessed to him in August
2007. “JR's” confession involved two shooters, a
claim which is discredited by the eyewitness
testimony and the physical evidence in this case.
The ballistics evidence conclusively determined
that only one gun was used to commit these
murders. Gonzalez's testimony was impeached
by the physical evidence and would not have
conclusively changed the outcome of the retrial.
Gonzalez further testified that he told one of
defendant's
attorneys,
defendant,
and
defendant's wife of the alleged confession.
Defendant's sister also heard Gonzalez tell
defendant's attorney about the alleged
confession, and she then informed the
defendant. Therefore, this was not newly
discovered evidence but was evidence known
before the trial occurred. The trial court properly
denied defendant's motion regarding Gonzalez's
testimony.

93

¶ 100 Defendant's sister, Susan, states that she
never heard anyone confess, but she did hear
Gonzalez tell defendant's attorney that “Blood”
and “JR” confessed, and she was “pretty sure”
she told defendant about this the next time she
visited him in jail. She visited defendant about
20 times in 2009 and in 2011, right before
defendant's trial.
¶ 101 Each of the four witnesses claim that the
murders of Reynoso and Lilligren were confessed
to and committed by two people, yet the
eyewitness testimony and physical evidence
definitively disproves this assertion. Therefore,
in each instance the trial court was correct in
concluding that the evidence would not have
conclusively changed the result of the retrial
because none of the alleged confessions by
“Blood” or “JR” tended to negate defendant's
participation in the murder.
¶ 102 The trial court properly denied defendant's
motion for a new trial based on newly discovered
evidence. Here, the evidence defendant could
have been discovered prior to trial through due
diligence and was not of such a conclusive
character that it would likely change the result
on retrial. The evidence presented by the five
witnesses that came forward would not have

94

likely changed the outcome of the trial in light of
the entirety of the evidence presented.
28¶ 103 Defendant also argues that all of the
above testimony would be admissible based on
either Chambers v. Mississippi, 410 U.S. 284, 93
S.Ct. 1038, 35 L.Ed.2d 297 (1973), or Illinois
Rule of Evidence 804(b)(3) (eff. Jan. 1, 2011).
Under Chambers, there are four factors used to
evaluate admissibility. The four aspects of a
hearsay statement which tend to make the
statement admissible are: (1) it was made
spontaneously to a close acquaintance shortly
after the crime occurred, (2) it was corroborated
by other evidence, (3) it was self-incriminating
and against declarant's interest, and (4) there
was adequate opportunity for cross-examination
of the declarant. Chambers, 410 U.S. at 300–01,
93 S.Ct. 1038. The Chambers factors are merely
guidelines to admissibility; the presence of all
four factors is not required. People v. Tenney,
205 Ill.2d 411, 435, 275 Ill.Dec. 800, 793 N.E.2d
571 (2002).
¶ 104 Defendant argues that Rodriguez's
testimony satisfies three of the four Chambers
factors and should be admissible. We disagree.
Her testimony was not corroborated by other
evidence, and there is not an adequate
opportunity to cross-examine either Quinones or

95

Rosa, thus making her hearsay testimony
unreliable even if Quinones allegedly told her
days after the murder that he and Rosa had
committed the murders.
¶ 105 Under Illinois Rule of Evidence
804(b)(3) (eff. Jan. 1, 2011), a statement of an
unavailable declarant is admissible if it is a:
“statement which was at the time of its making
so far contrary to the declarant's pecuniary or
proprietary interest, or so far tended to subject
the declarant to civil or criminal liability, or to
render invalid a claim by the declarant against
another, that a reasonable person in the
declarant's position would not have made the
statement unless believing it to be true. A
statement tending to expose the declarant to
criminal liability and offered in a criminal case
is not admissible unless corroborating
circumstances
clearly
indicate
the
trustworthiness of the statement.”
While both alleged declarants are unavailable,
there are no “corroborating circumstances [to]
clearly indicate the trustworthiness of the
statements.” Id.
¶ 106 We find that the trial court did not abuse
its discretion in denying defendant's motion for

96

a new trial based on the testimony provided
during the hearing. The testimony of all the
witnesses could have been discovered before trial
and was not so conclusive as to change the
outcome of the trial.
29¶ 107 Next, defendant argues that the
prosecutor deprived defendant of a fair trial
when he made prejudicial comments during
closing argument. Specifically, defendant claims
that the prosecutor accused defense counsel of
being “very good” at “trying to confuse the
witnesses about case reports and supplemental
reports and all this stuff,” that defense counsel
tried to *751 **63 “distort as much as possible,”
that defense counsel was “exaggerating to make
it look like reasonable doubt and they couldn't
have seen what they saw” and that the defense
“was just going to throw it out there anyway.”
Regarding Stiles, the State argued that the
defense was “trying to have her sign something
so they could argue to you that she didn't see the
police at all.” Lastly, the State accused defense
counsel of wanting the police to kill innocent
people, saying that defense counsel, “thinks that
the police should be shooting at everybody out
there.” An objection to this last comment was
sustained.

97

3031323334¶ 108 Courts allow prosecutors great
latitude in making closing arguments. People v.
Cisewski, 118 Ill.2d 163, 175, 113 Ill.Dec. 58, 514
N.E.2d 970 (1987). A prosecutor may comment
on the evidence and all reasonable inferences
from the evidence. People v. Pasch, 152 Ill.2d
133, 184, 178 Ill.Dec. 38, 604 N.E.2d 294 (1992).
A closing argument must be viewed in its
entirety, and the challenged remarks must be
viewed in their context. People v. Glasper, 234
Ill.2d 173, 204, 334 Ill.Dec. 575, 917 N.E.2d 401
(2009). Argument that serves no purpose but to
inflame the jury constitutes error. Blue, 189
Ill.2d at 127–28, 244 Ill.Dec. 32, 724 N.E.2d 920.
Statements will not be held improper if they
were provoked or invited by the defense
counsel's argument. People v. Kirchner, 194
Ill.2d 502, 553, 252 Ill.Dec. 520, 743 N.E.2d 94
(2000).
¶ 109 There is a conflict regarding the correct
standard for reviewing a prosecutor's remarks
during argument. People v. Daniel, 2014 IL App
(1st) 121171, ¶ 32, 382 Ill.Dec. 436, 12 N.E.3d
715. In People v. Wheeler, 226 Ill.2d 92, 121, 313
Ill.Dec. 1, 871 N.E.2d 728 (2007), and People v.
Sims, 192 Ill.2d 592, 615, 249 Ill.Dec. 610, 736
N.E.2d 1048 (2000), our supreme court
suggested that we should review this issue de

98

novo. In People v. Hudson, 157 Ill.2d 401, 441,
193 Ill.Dec. 128, 626 N.E.2d 161 (1993), however,
the court suggested that we should review this
issue for an abuse of discretion. We need not take
a position in this case, as defendant's claim fails
under either standard.
¶ 110 The above complained of comments from
the prosecutor were made during rebuttal
argument, were invited by defense counsel's
closing argument, and were a reasonable
response to defense counsel's arguments. The
defense asserted that the police were lying for
their own convenience so that they did not have
to perform a proper police investigation. The
prosecutor's comment about defense counsel
thinking “that the police should be shooting at
everybody out there” was ultimately sustained.
These remarks were also provoked by
defendant's closing argument. Defense counsel
questioned Officer Sedlacek's and Officer Park's
credibility by stating:
“Two guys who, for the life of me to this day, if,
in fact, they saw what they claim they saw, how
do you not shoot this guy? How do you not fire
one shot at a guy that you just saw kill two
people? And Sedlacek said, you know, I'm not a
killer. Well, you know, you're a policeman who
you've just witnessed, according to you, a double

99

murder, and you're within 10 feet of this guy as
he's carrying a gun and he turns in your
direction and you don't fire off a shot. Think
about that, ladies and gentleman. Does that
make sense? Neither one of these guys. Neither
one.”
¶ 111 Viewing the prosecutor's closing
argument in toto, we find that the prosecutor's
comments were not prejudicial and did not
deprive defendant of a fair trial.
3536¶ 112 We also reject defendant's argument
that the State attempted *752 **64to define
reasonable doubt and shift the burden of proof to
the defendant. The State commented that the
burden of proof was not “some kind of Everest
that we have to scale.” Defense counsel's
objection to this remark was sustained. The
State also argued that there was “no other
explanation” of the gunshot residue evidence,
and an objection to this statement was
overruled. The State further added that
defendant was the “unluckiest man in the
world.”
¶ 113 In People v. Thompson, 2013 IL App (1st)
113105, ¶¶ 86–94, 375 Ill.Dec. 370, 997 N.E.2d
681, this court held the State's comment that the
reasonable doubt standard was not a “mystical

100

magical burden” was not error. The first remark
made by the State regarding the burden of proof
was sustained by the trial court. The argument
that there was “no other explanation” for the
gunshot residue evidence does not shift the
burden to the defendant. The prosecutor was
merely highlighting unimpeached evidence that
had been admitted. Furthermore, claiming the
defendant was the “unluckiest man in the world”
was invited by the defense closing argument
claiming defendant was at the wrong place at the
wrong time and falsely identified. These
comments do not amount to unfair prejudice to
the defendant.
37¶ 114 Defendant next asserts the State
committed
prejudicial
error
by
arguing, “[c]ounsel talks about, well, why we
didn't
do
a
lineup.
It's
not
fair
to Robert Anderson. Well, there is a reason why,
and you heard that reason during the trial.
Because what if it's the wrong guy? Because
what if it's the wrong guy? What do we say to the
victim's family then? Well, sorry, we did a whole
lineup.” The defense then objected and was
overruled. The State continued, “We did a whole
lineup and it took us about three hours or a
couple hours to get the lineup together, but you
know what, it wasn't him and, sorry, we didn't

101

catch him that night.” This argument was in
direct response to defendant's argument that
show-up identifications were flawed and
unreliable. The prosecution was merely
emphasizing that show-up identifications are
done in emergency situations when a suspect is
caught quickly after an offense to confirm his
identity by a witness, because if the witness
states that the suspect was not the offender, the
police can quickly begin searching for the correct
offender. The prosecution was demonstrating
the consequences of using a traditional lineup
under the circumstances of this investigation.
These comments were not inflammatory or
prejudicial.
38¶ 115 Finally, defendant asserts he was
prejudiced by the State arguing that a guilty
verdict was the only way to make defendant
“accept responsibility for what he did that
night,” and they should “tell him that his
murdering days are over.” The trial court
sustained the objections to these remarks.
¶ 116 These rebuttal comments, similar to our
view of the other claimed improper prosecutorial
comments, did not unfairly prejudice defendant
when viewed in context and in their totality.
Most of the comments were invited by the

102

defense closing, and none were so prejudicial to
deny defendant a fair trial.
39¶ 117 Defendant claims the trial court erred
in denying his motion for a new trial because he
received ineffective assistance of trial counsel.
Defendant specifically contends trial counsel
was ineffective for failing to ask for a limiting
instruction in regard to evidence of defendant's
prior arrest, failing to introduce DNA evidence,
and failing to make a better offer of proof for the
eyewitness expert testimony.

65 ¶ 118 To prevail on a claim of ineffective
assistance of counsel, a defendant must show
that (1) counsel's performance was deficient and
(2) counsel's actions resulted in prejudice to the
defendant. Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984); People v. Evans, 209 Ill.2d 194, 220, 283
Ill.Dec. 651, 808 N.E.2d 939 (2004). Under the
first prong, a defendant must demonstrate that
his attorney's performance fell below an
objective standard of reasonableness. Evans,
209 Ill.2d at 220, 283 Ill.Dec. 651, 808 N.E.2d
939. Under the second prong, prejudice is shown
where there is a reasonable probability that the
result would have been different but for
counsel's alleged deficiency. Id. Failure to
satisfy either prong of the Strickland test

103

precludes a finding of ineffective assistance of
counsel. Strickland, 466 U.S. at 697, 104 S.Ct.
2052.
¶ 119 In analyzing the first claim, that trial
counsel was ineffective for failing to ask for a
limiting instruction in regard to evidence of
defendant's prior arrest, we find defendant
suffered no prejudice. There is not a reasonable
probability that the result of the trial would have
been different had the jury received an
instruction stating that defendant's aggravated
battery case should only be considered to suggest
that Officer Sedlacek had a motive to falsely
identify defendant. The more effective, but
unsuccessful, use of this arrest was defense
counsel's ability to present the jury with facts
tending to diminish the police officer's
identification testimony because the previous
contact with defendant would indicate that he
should have recognized defendant at the time of
the incident and his arrest. The acquittal was
not the important point: it was the officer's
purported familiarity with the defendant that
defense counsel skillfully brought before the
jury.
¶ 120 Defendant next asserts counsel was
ineffective by failing to introduce DNA evidence.
Defendant has likewise failed to establish that

104

he suffered prejudice as a result of defense
counsel's failure to introduce this evidence or
that it was not simply trial strategy.
¶ 121 Defendant claims he was excluded as a
DNA donor to the gloves that tested positive for
gunshot residue. However, this is not the case.
Dr. Reich interpreted the DNA evidence as
excluding defendant from the DNA found on one
of the two gloves. He was not excluded as a donor
on the other. The State could have rebutted this
conclusion through presenting the conclusions of
the Illinois State Police DNA report, which did
not exclude defendant as a donor of the DNA
found on both gloves. Dr. Reich also testified it
was possible that defendant wore both gloves.
¶ 122 However, Dr. Reich, the DNA expert,
testified at the hearing for a new trial and
admitted that he extensively cut and pasted his
reports. The trial court found Dr. Reich to be one
of the most “incredible experts” it had ever seen
testify. The defense attorney also testified at this
hearing and stated that once he realized the
State was not going to introduce DNA evidence
and that Dr. Reich had credibility issues, he
made a strategic decision not to introduce the
DNA evidence and instead argue that the State's
failure to introduce DNA evidence was a
weakness in their case. The record, in our view,

105

supports the finding that defense counsel's
failure to introduce this evidence was a valid
trial strategy and not unreasonable. See People
v. Orange, 168 Ill.2d 138, 153, 213 Ill.Dec. 589,
659 N.E.2d 935 (1995) (noting that a decision
which involves a matter of trial strategy will
generally not support a claim of ineffective
representation).

66 ¶ 123 Lastly, the eyewitness testimony expert
was not excluded because of an inadequate offer
of proof from defense counsel. The trial court,
exercising its discretion, made this decision after
looking at the entirety of the evidence presented
and the probative and prejudicial value of the
proffered testimony. The eyewitness and
physical
evidence,
while
some
of
it
circumstantial,
supported
defendant's
conviction. Therefore, defendant was not
prejudiced by the arguments counsel made in
defendant's offer of proof in support of allowing
expert eyewitness testimony.
¶ 124 CONCLUSION
¶ 125 Based on the foregoing, we affirm the
judgment of the trial court.
¶ 126 Affirmed.

106

Justice Hyman and Justice Mason concurred in
the judgment and opinion.
All Citations
2017 IL App (1st) 122640, 72 N.E.3d 726, 411
Ill.Dec. 38

107

APPENDIX C
IN THE CIRCUIT COURT OF COOK
COUNTY, ILLINOIS COUNTY
DEPARTMENT – CRIMINAL DIVISION
_____________________
No. 03-CR-7356-01
_____________________
[May 19, 2011]
_____________________

THE COURT:
Every -- every factual circumstance can
cut two ways, and the main part of your
argument, Mr. Beuke, where you indicate that
the officers -- I don't know that the officers knew
the defendant from prior occasions or if one of
the officers may have had some contact with the
Defendant on a prior occasion and it is a valid
argument that the officer would have put out the
name of the Defendant in the initial 911 tape,
however, that -- that cuts both ways.
Normally when there's some type of a
description that's going out on the radio, the
officers would have to presume that not everyone

108

else in the district or the area would know the
Defendant and they would want to get a physical
description out there first so that other officers
may find someone that matches the description
who may not know who the Defendant is. So it
also may -- makes perfect sense that the officers
knowing the Defendant's name, if that be the
truth, and I don't know if it is, or the nickname
would not necessarily supply that information
initially but would supply a physical description
on the 911 tape.
So I don't know that that fact -- that's one
fact that relates to the case. I've read all the
cases and I've now looked at the case that the
State cited wherein Muskegon, Michigan applied
an analysis and denied the testimony of Doctor
Fulero. The cases that I have reviewed
extensively are, in fact, the Aguilar case. I even
took a look at the Allen case which was cited in
Aguilar and have read Becker and the other case
that the State – Pelo that the -- that the State
cited.
And Justice Steigmann's analysis in Pelo
is given high weight. Justice Steigmann is a
scholar of the law and teaches judicial education,
well respected Appellate Court judge with many,
many years of service in the system. In fact, I can

109

even remember back in the old days when Judge
Steigmann would be a summer judge at 26th and
California when before the days that we had
floaters and things like that and backup judges
they would bring in judges from downstate to
preside in these courtrooms at 26th and
California during the summer. Steigmann was
one of those judges.
But I have the Supreme Court case Becker
and they -- they provide some pretty good
guidelines for analysis between the case at bar,
Robert Anderson, as well as how these facts
stack up against some of the facts of the other
cases that were cited.
The time limit to the identification is, in
fact, extremely short, much shorter even than
Aguilar. The Anderson case, this case, also
contains what could be considered strong
circumstantial evidence on the route of flight
and recovery of gun and positive gunshot residue
that support the identification. So the case isn't
going to rise or fall on the identifications of two
police officers alone.
In addition, it is relevant that the
witnesses are police officers. You can't look at
these things in a vacuum. They are trained to

110

observe. They're always looking for something.
Of course, the argument could be made they're
only human and they can make mistakes also
and that argument most likely will be made and
it can be made without the aid of an expert
witness to try to explain to a jury what that -there can be errors in identification.
In applying the tests that are laid out in Becker,
the trial court does not err in barring expert
testimony where the matter at issue is not
beyond the ken of the average jury. In my
view that's -- that's applicable here. The matter
at issue, identification, is not beyond the ken of
the average juror.
Two. Expert testimony is not admissible on
matters of comnon knowledge unless the subject
is difficult to understand and explain. Once
again my view is that a matter of identification
is a matter of common knowledge which can be
argued effectively either way and which is
supported by a jury instruction which has been
the subject of litigation over the years and is now
refined to the point where it's given in one
specific format with all the factors that need to
be analyzed to aid the jury in determining
whether the identification is suspect or not. So
armed with those

111

types of things in my view this is a matter of
common knowledge and is easy to understand
and explain and doesn't require expert
testimony.
Thirdly. An expert's testimony is only necessary
when the subject is both particularly within the
witness' experience and qualifications and
beyond that of the average juror's when it will
aid the jury in reaching its conclusion. Scientific
expertise being more or less the -- the example
that would be so relevant or so -- the type that
that expert testimony is needed. This is a
situation where I don't think the witness1
experience and qualifications are beyond that of
the average juror's and I don't feel that it will aid
the jury in reaching its conclusion. I feel it would
possibly confuse the jury and possibly mislead
the jury. So that's -- that's a third reason I -- I'm
weighing on the side of the State.
A court should carefully consider the necessity
and relevance of the expert testimony in light of
the facts of the case before admitting it for the
jury's consideration. And again in terms of the
facts of the case, we have two witnesses, police
witnesses basically making an on view. We have
a Defendant supposedly coming towards them
before he breaks for a different direction and

112

ultimately in the pursuit is lost in the pursuit so
there's some moment of -- moment in time where
they do not have him in their view but he's
captured a short distance away relatively
quickly.
So when I consider those acts and compare them
against some of the facts in cases where an
expert could have been used to aid the jury, I
don't -- I think the facts cut in favor of the State
on this particular case.
And then lastly, which I do all the time, I always
conduct a balancing test to determine whether
the probative value of the reliability of the expert
testimony, how that weighs against barring that
testimony against any prejudicial effect and my
view is that the --in conducting that balancing
test, the probative value denying the expert's
testimony outweighs any prejudicial effect that
would inure to the Defendant as a result of him
not being called.
So for all those reasons the Defense motion to
present identification expert testimony through
Doctor Fulero will be respectfully denied.

